                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




         AGREED-UPON PROCEDURES FOR
           CORPORATION FOR NATIONAL
         AND COMMUNITY SERVICE GRANTS
                 AWARDED TO
            SERVE GUAM! COMMISSION

                      OIG REPORT 11-16




                         Prepared by:

                     Cotton & Company
                      635 Slaters Lane
                    Alexandria, VA 22314




This report was issued to Corporation management on August 15, 2011. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
February 15, 2012, and complete its corrective actions by August 15, 2012.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                                        August 15, 2011

TO:            John Gomperts
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 11-16, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to Serve Guam! Commission

Attached is the final report for the above-noted agreed-upon procedures, which were performed
for the OIG under contract by the independent certified public accounting firm of Cotton and
Company LLP. The contract required Cotton and Company to conduct its procedures in
accordance with generally accepted government attestation standards.

Cotton and Company is responsible for the attached report, dated August 4, 2011, and
conclusions expressed therein. The agreed-upon procedures, unlike an audit in accordance
with U.S. generally accepted government auditing standards, was not intended to enable us to
express opinions on Serve Guam’s Consolidated Schedule of Claimed and Questioned Costs or
the Schedule of Claimed and Questioned Costs for individual awards, conclusions on the
effectiveness of internal controls, or compliance with laws, regulations and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by February 15, 2012. Notice of final action is due by August 15, 2012.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ronald
Huritz, Audit Manager, at (202) 606-9355.

Attachment

cc:     Leah Beth Naholowaa, Director, Guam Department of Labor
        Doris Aguon, Program Manager, Serve Guam! Commission
        William Anderson, Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial Management
        Claire Moreno, Audit Resolution, Office of Grants Management, CNCS
        Jack Goldberg, Audit Resolution, Office of Grants Management, CNCS
        Jim Stone, AmeriCorps Program Officer, CNCS
        Tony Babauta, Assistant Secretary for Insular Areas, U.S. Department of Interior
        Mary Kendall, Acting Inspector General, U.S. Department of Interior
        Michael Gillespie, Partner, Cotton & Company

                   1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                      202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                        Senior Corps  AmeriCorps  Learn and Serve America
                                   OFFICE OF INSPECTOR GENERAL
                                  AGREED-UPON PROCEDURES FOR
                          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                       GRANTS AWARDED TO
                                     SERVE GUAM! COMMISSION


                                                            CONTENTS


       Section                                                                                                           Page


Executive Summary .........................................................................................................   1

Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                     5

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ............................                                 7

Schedule A: Claimed and Questioned Costs Sanctuary, Incorporated ..........................                                   8

Schedule B: Claimed and Questioned Costs University of Guam ................................... 13

Schedule C: Claimed and Questioned Costs University of Guam-American
            Recovery and Reinvestment Act ................................................................. 17

Schedule D: Claimed and Questioned Costs Micronesian Business Association ........... 19

Schedule E: Claimed and Questioned Costs Award No. 05CAHGU001 ......................... 20

Schedule F: Claimed and Questioned Costs Award No. 08CAHGU001 ......................... 21

Schedule G: Claimed and Questioned Costs Award No. 06PTHGU001 ......................... 23

Schedule H: Claimed and Questioned Costs Award No. 09PTHGU001 ......................... 25

Exhibit B: Compliance Results ........................................................................................ 27

Appendices

A: Serve Guam! Commission Response to Draft Report
B: Corporation for National and Community Service Response to Draft Report
                                     EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures to assist
the OIG in grant cost and compliance testing of Corporation-funded Federal assistance provided to
the Serve Guam! Commission (SGC).

SUMMARY OF RESULTS

As a result of applying our procedures, we questioned claimed Federal-share costs of $71,847 and
education awards of $40,344. A questioned cost is an alleged violation of a provision of law,
regulation, contract, grant, cooperative agreement, or other agreement or document governing the
expenditure of funds or a finding that, at the time of testing, includes costs not supported by
adequate documentation. Detailed results of our agreed-upon procedures on claimed costs are
presented in Exhibit A, Consolidated Schedule of Claimed and Questioned Costs, and the
supporting schedules.

Participants who successfully complete terms of service under AmeriCorps grants are eligible for
education awards and, in some cases, accrued interest awards funded by the Corporation’s
National Service Trust. These award amounts are not funded by Corporation grants and, thus, are
not included in claimed costs. However, as part of our agreed-upon procedures and using the
same criteria used for the grantee’s claimed costs, we determined the effect of our findings on
members’ eligibility for education and accrued interest awards.

We determined that, based on the pervasive problems outlined in the report, SGC has
mismanaged the AmeriCorps grants. Our observations during fieldwork revealed serious
deficiencies in many facets of the program. SGC and its subgrantees charged costs that were
not recorded in the accounting system, including $10,579 on its state administrative grant that
SGC was unable to reconcile; claimed costs that were not allocable to the AmeriCorps program,
including two instances of living allowance payments to individuals who were not enrolled as
members; one instance of consultant costs claimed as living allowance costs; and numerous
instances of AmeriCorps member timesheets that did not agree with hours reported and
certified in the MyAmeriCorps Portal (Portal). In addition, we found that one subgrantee has not
followed AmeriCorps and Internal Revenue Service requirements for withholding and remitting
FICA taxes (Social Security and Medicare) for living allowance payments to members. This
situation is due to SGC’s misinterpretation of rulings obtained from the Guam Department of
Revenue and Taxation and the IRS, resulting in a potential tax liability in excess of $110,000.

In the course of performing our procedures, we also learned that at least one AmeriCorps member
at the University of Guam (UOG) subgrantee site was assigned to perform personal duties at
government functions that were not allowable service activities under the grant agreement. These
activities were inconsistent with UOG’s program application narrative, and could be perceived as
endorsing an elected official. Such endorsements are prohibited by AmeriCorps regulations. For
further details, see the Member Activities section of this report at page 46.

Given the number and nature of the findings summarized above, the Corporation should
consider whether SGC warrants being designated a “high-risk grantee,” in accordance with 45
CFR §2541.120, and whether a hold should be placed on further grant drawdowns until the
foregoing issues are resolved. The Corporation responded (Appendix B) that it agrees the


                                               1
report raises serious concerns, but that it does not provide sufficient detail to allow it to make a
determination on the appropriateness of the high-risk designation.

The following is a summary of grant compliance testing results. These results, along with
applicable recommendations, are discussed in Exhibit B, Compliance Results.

1. SGC and three subgrantees did not have adequate controls to ensure claimed costs
   were allowable, allocable, and compliant with Office of Management and Budget (OMB)
   accounting circulars.

2. Two subgrantees did not follow certain AmeriCorps requirements for members exited
   early due to compelling personal circumstances.

3. Subgrantees did not comply with AmeriCorps requirements for criminal history checks
   and National Sex Offender Public Registry (NSOPR) searches.

4. Subgrantees did not accurately record all timesheet hours, did not have procedures to
   verify timesheet accuracy or to ensure all timesheets were signed and, in some
   instances, timesheets did not support member eligibility for education awards.

5. Subgrantees could not demonstrate that some members received performance
   evaluations, and all end-of-term evaluations did not meet AmeriCorps requirements.

6. Two subgrantees did not complete all member enrollment and exit forms and enter them
   into the Corporation’s reporting systems in accordance with AmeriCorps requirements.

7. UOG did not follow AmeriCorps and Internal Revenue Service requirements for
   withholding FICA taxes from members’ living allowance payments.

8. SGC and its subgrantees did not follow certain AmeriCorps requirements.

9. Subgrantee Sanctuary, Incorporated (Sanctuary) did not ensure reimbursements
   received from SGC were disbursed in a timely manner.

10. UOG’s timekeeping system did not comply with Federal requirements, and Sanctuary
    could not provide support for labor costs.

11. SGC did not document its reviews of subgrantee OMB Circular A-133 Single Audit
    reports.

AGREED-UPON PROCEDURES SCOPE

We performed the agreed-upon procedures detailed in the OIG’s Agreed-Upon Procedures (AUP)
for Corporation Awards to Grantees (including Subgrantees), dated April 2010. Our procedures
covered testing of the grant programs listed in the table below. The grant programs included
AmeriCorps State, American Recovery and Reinvestment Act (ARRA), State Administrative
(Administrative), and Professional Development and Training (PDAT).




                                                  2
                                                                                     Total
    Grant Program        Award No.         Award Period         AUP Period         Awarded
    AmeriCorps State    05AFHGU001       11/01/05-09/30/11   04/01/08-03/31/10    $7,288,041
    ARRA                09RFHGU001       06/01/09-06/30/10   06/01/09-06/30/10       340,113
    Administrative      05CAHGU001       07/01/05-06/30/09   07/01/08-06/30/09       343,095
    Administrative      08CAHGU001       01/01/08-12/31/10   07/01/08-06/30/10       438,283
    PDAT                06PTHGU001       07/01/06-12/31/09   01/01/08-12/31/09        69,408
    PDAT                09PTHGU001       01/01/09-12/31/11   01/01/09-06/30/10        86,559

OIG’s AUP program required us to:

      Obtain an understanding of SGC’s operations and programs, and its subgrantee
       monitoring process.

      Reconcile SGC’s claimed Federal grant costs to its general ledger accounting system.

      Test subgrantee member files to verify that records support members’ eligibility to serve,
       allowability of living allowances, and eligibility to receive education awards.

      Test SGC’s, and a sample of its subgrantees’, compliance with selected AmeriCorps
       provisions and award terms and conditions.

      Test SGC’s, and a sample of its subgrantees’, claimed Federal grant costs to ensure:

          AmeriCorps grants were properly recorded in SGC’s general ledger and subgrantee
           records.

          Costs were allowable and properly documented in accordance with applicable OMB
           circulars, grant provisions, award terms, and conditions.

We performed testing at SGC and three subgrantee sites from July 2010 through January 2011.

BACKGROUND

The Corporation

The Corporation supports national and community service programs that provide an opportunity
for participants to engage in full- or part-time periods of service. It funds service opportunities
that foster civic responsibility and strengthen communities and also provides educational
opportunities for those who have made a substantial commitment to service.

The Corporation has three major service initiatives: National Senior Service Corps,
AmeriCorps, and Learn and Serve America. AmeriCorps, the largest of the initiatives, is funded
through grants to states and territories with commissions, grants to states and territories without
commissions, and National Direct funding to organizations. Grantees recruit and select
volunteers who must qualify to earn a living allowance and/or education awards.




                                                 3
Serve Guam! Commission

SGC, which administers the AmeriCorps programs in Guam, was established in 2005 and is
part of the Guam Department of Labor. The Director of SGC is also the Director of the Guam
Department of Labor. SGC receives multiple awards from the Corporation, including
AmeriCorps State, ARRA, Administrative, and Professional Development and Training grants.
AmeriCorps grants are annual awards passed through SGC to eligible subgrantees that recruit
and select members. SGC subgrantees covered by this review included:

      Sanctuary, Incorporated
      University of Guam
      Micronesian Business Association (MBA)

EXIT CONFERENCE

The contents of this report were discussed with SGC and Corporation representatives on May
17, 2011. We have summarized SGC’s comments in the appropriate sections of this report and
have included its complete comments in Appendix A.

The Corporation met with representatives of SGC and discussed corrective actions to address
all findings. It intends to respond to all findings and recommendations in its management
decision at a later date (see Appendix B).




                                              4
August 4, 2011


Office of Inspector General
Corporation for National and Community Service

                             INDEPENDENT ACCOUNTANTS’ REPORT ON
                              APPLYING AGREED-UPON PROCEDURES

Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures for Corporation Awards to Grantees (including Subgrantees), dated April 2010.
These procedures were agreed to by the OIG solely to assist it in grant cost and compliance
testing of Corporation-funded assistance provided to SGC for the awards detailed below.

This AUP engagement was performed in accordance with attestation standards established by
the American Institute of Certified Public Accountants and generally accepted government
auditing standards. The sufficiency of these procedures is solely the responsibility of the OIG.
Consequently, we make no representation regarding the sufficiency of the procedures, either for
the purpose for which this report has been requested or any other purpose.

Our procedures covered testing of the following awards:

   Grant Program        Award No.        Award Period         AUP Period       Total Award
   AmeriCorps State    05AFHGU001      11/01/05-09/30/11   04/01/08-03/31/10   $7,288,041
   ARRA                09RFHGU001      06/01/09-06/30/10   06/01/09-06/30/10      340,113
   Administrative      05CAHGU001      07/01/05-06/30/09   07/01/08-06/30/09      343,095
   Administrative      08CAHGU001      01/01/08-12/31/10   07/01/08-06/30/10      438,283
   PDAT                06PTHGU001      07/01/06-12/31/09   01/01/08-12/31/09       69,408
   PDAT                09PTHGU001      01/01/09-12/31/11   01/01/09-06/30/10       86,559

We performed testing of these AmeriCorps program awards at SGC and three of its
subgrantees. We selected samples of labor, benefits, and other direct costs at SGC that were
reported on its December 31, 2008; June 30, 2009, December 31, 2009; and June 30, 2010
Federal Financial Reports (FFR). We also selected samples of labor, benefits, and other direct
costs at the three subgrantees that were reported by SGC on its September 30, 2008; March
31, 2009; September 30, 2009; and March 31, 2010 FFR for program years (PYs) 2007-2008,
2008-2009, and 2009-2010 and the ARRA award. We also tested certain grant compliance
requirements by sampling 63 members from subgrantees Sanctuary, UOG, and MBA, as shown
on the following page. We performed all applicable testing procedures in the AUP program for
each sampled member.




                                               5
                         Sanctua
                               ary                    UOG
                                                        G                       MB
                                                                                 BA
                      Total    Sampled
                               S                Total   SSampled          Total    Sampled
      PY            Members
                    M         Members
                              M               Members
                                              M         M
                                                        Members          Members   Members
      200
        07-2008         42          8             64          7              30         6
      200
        08-2009         42          8             58          7              35         7
      200
        09-2010         47          9             49          4               0         0
      ARRRA              0          0             33          7               0         0
      Tota
         al            131         25            204         25              65        13


RESULTS
      S OF AGREED
                D-UPON PROC
                          CEDURES

We ques  stioned claim
                     med Federal--share costs s of $71,847.. A question  ned cost is a
                                                                                     an alleged
                                  ulation, contrract, grant, ccooperative agreement, or other
violation of provision of law, regu
agreeme  ent or documment governinng the expenditure of fu nds or a find ding that, at the time of
testing, in
          ncludes costts not suppoorted by adequate docum     mentation.

We ques stioned educcation awards of $40,344  4. Grant parrticipants wh
                                                                      ho successfu  ully complete
                                                                                                e
terms of service undeer AmeriCorrps grants arre eligible fo
                                                          or education awards and  d repayment of
student lo
         oan interest accrued during the term m of service from the Coorporation’s NNational Serrvice
Trust. Thhese award amounts are    e not funded
                                              d by Corporaation grants and thus are e not include
                                                                                                ed in
claimed costs.
         c      Howe ever, as partt of our AUPP, and using the same crriteria as cla
                                                                                   aimed costs, we
determined the effecct of our findiings on educcation and a
                                                          accrued interrest award eeligibility.

Detailed results of ou
                     ur agreed-uppon procedu             med costs arre in Exhibit A and the
                                             ures on claim
supportin
        ng schedules s. Results of
                                 o testing gra
                                             ant compliannce are summ  marized in EExhibit B. W
                                                                                              We
were not engaged to o and did nott perform an examination n, the objecttive of which
                                                                                   h would be
expressio
        on of an opinnion on the subject
                                 s       mattter. Accordi ngly, we do not expresss such an
opinion. Had we perrformed othe  er procedurees, other mattters might h
                                                                      have come tto our attentiion
that would have been n reported.

This repo
        ort is intende                                   e of the OIG, the Corporration, SGC, and
                     ed solely for the information and use
the U.S. Congress, and
                     a is not inttended to bee and shouldd not be used by anyonee other than
these speecified partie
                      es.

COTTON & COMPANY LLP




Michael W.
        W Gillespie, CPA, CFE
Operations Managingg Partner




                                                   6
                                                                                    EXHIBIT A

                               SERVE GUAM COMMISSION
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
               CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS


                                    Federal Costs              Questioned
                                                                Education
                        Awarded       Claimed       Questioned   Awards     Reference
     05AFHGU001
        PY 2005-2006   $1,115,093            $0            $0         $0
        PY 2006-2007    1,411,126       113,061             0          0
        Sanctuary       1,488,713     1,053,850        30,602     10,474    Schedule A
        UOG             1,473,949       789,170         9,831     19,945    Schedule B
        MBA               500,095       443,702         1,755          0    Schedule D
        Others          1,299,065       799,908             0          0
     Total             $7,288,041    $3,199,691       $42,188    $30,419


     09RFHGU001         $340,113      $191,511            $0      $9,925    Schedule C
     05CAHGU001         $343,095       $10,579        $10,579         $0    Schedule E
     08CAHGU001         $438,283      $238,197         $3,647         $0    Schedule F
     06PTHGU001          $69,408       $36,485         $5,756         $0    Schedule G
     09PTHGU001          $86,559       $29,533         $9,677         $0    Schedule H
     Grand Total                                      $71,847    $40,344




Reference

Schedule A:   Sanctuary AmeriCorps Formula Award No. 05AFHGU001
Schedule B:   UOG AmeriCorps Formula Award No. 05AFHGU001
Schedule C:   UOG American Recovery and Reinvestment Act Award No. 09RFHGU001
Schedule D:   MBA AmeriCorps Formula Award No. 05AFHGU001
Schedule E:   State Administrative Award No. 05CAHGU001
Schedule F:   State Administrative Award No. 08CAHGU001
Schedule G:   PDAT Award No. 06PTHGU001
Schedule H:   PDAT Award No. 09PTHGU001




                                                7
                                                                                     SCHEDULE A

                                 SERVE GUAM! COMMISSION
                         SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                                SANCTUARY, INCORPORATED
                                   AMERICORPS FORMULA
                                  AWARD NO. 05AFHGU001


                                         PY              PY          PY
                                      2007-2008       2008-2009   2009-2010     Total       Notes
Claimed Federal Costs                 $399,293        $480,001    $174,556    $1,053,850

Questioned Federal Costs:
   Unallocable other costs              $21,881            $29         $58       $21,968      1
   Unsupported other costs                1,153          4,305           0         5,458      2
   Unsupported claimed costs              1,982             59           0         2,041      3
   Unallowable costs,
     accounting services                      0              0         781           781      4
   Unsupported labor costs                    0              0         354           354      5
Total Questioned Federal Costs          $25,016         $4,393      $1,193       $30,602

Questioned Education Awards:
  Compelling personal circumstances      $4,597         $1,152          $0        $5,749      6
  Timekeeping discrepancies,
    unsigned timesheet                    4,725             0            0         4,725      7

Total Questioned Education Awards        $9,322         $1,152          $0       $10,474


1. Sanctuary claimed costs that were not in its approved budget and unallocable to the
   AmeriCorps program.

    Seven sampled transactions from PY 2007-2008 were for office supplies that were not in
    Sanctuary’s approved budget. In addition, these items were purchased shortly before
    Sanctuary’s 2007-2008 program year ended on October 31, 2008.

    September 2008

       Sanctuary claimed $649 for the purchase of a computer for the executive director. This
        computer was not in the approved budget. In addition, none of the executive director’s
        work hours were claimed as Federal costs.

    October 2008

       Sanctuary claimed $3,900 for the purchase of office equipment. Items purchased
        included hydraulic chairs, folding tables, white boards, filing cabinets, and desks. These
        items were not included in Sanctuary’s approved budget.

       Sanctuary claimed $5,160 for the purchase of various office supplies. This purchase
        exceeded Sanctuary’s PY 2007-2008 budget for supplies of $4,420. Sanctuary’s Single
        Audit auditors questioned $4,160 of these costs in their Single Audit report for Fiscal

                                                  8
       Year ending September 30, 2009, dated June 15, 2010. These costs were questioned
       because Sanctuary did not comply with its procurement regulations for small purchases
       between $500 and $15,000. These regulations required three positive written quotations
       from businesses to be solicited, recorded, and placed in the procurement file.

      Sanctuary claimed $2,758 for the purchase of three laptop computers and antivirus
       software. These items were not in the approved budget.

      Sanctuary claimed $2,216 for the purchase of 40 cases of paper towels and 20 cases of
       foam cups. These items were not in the approved budget.

      Sanctuary claimed $2,395 for the purchase of 100 folding chairs. These items were not
       included in the approved budget. In addition, Sanctuary’s Single Audit auditors
       questioned these costs in their Single Audit report for Fiscal Year ending September 30,
       2009, dated June 15, 2010. These costs were questioned because Sanctuary did not
       comply with its procurement regulations for small purchases between $500 and $15,000.
       These regulations required three positive written quotations from businesses to be
       solicited, recorded, and placed in the procurement file.

      Sanctuary claimed $4,803 for the purchase of four computers, one printer, and four ink
       cartridges. These items were not included in the approved budget.

   We questioned $21,881 ($649+3,900+$5,160+$2,758+$2,216+$2,395+$4,803) from PY
   2007- 2008. See Compliance Finding 1 (Exhibit B).

   In addition, one sampled transaction from PY 2008-2009 and one sampled transaction from
   PY 2009-2010 were also unallocable to the AmeriCorps programs.

      In November 2008 (PY 2008-2009), Sanctuary claimed $870 ($29 x 30) for the cost of
       drug tests for 30 AmeriCorps members. However, 1 of the 30 names identified on the
       bills was for an individual who was not on the Portal member roster.

      In November 2009 (PY 2009-2010), Sanctuary claimed $1,392 ($29 x 48) for the cost of
       drug tests for 48 AmeriCorps members. However, 2 of the 48 names identified on the
       bills were for individuals who were not on the Portal member roster.

   We questioned $29 from PY 2008-2009 and $58 (2 x $29) from PY 2009-2010. See
   Compliance Finding 1 (Exhibit B).

   Criteria

   OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General
   Principles, Paragraph4,Allocable costs, states that a cost is allocable to a particular cost
   objective if the goods or services involved are chargeable or assignable to such cost
   objectives in accordance with relative benefits received.

2. Three sampled PY 2007-2008 transactions and four sampled PY 2008-2009 transactions
   were not adequately supported.




                                                9
PY 2007-2008

   In May 2008, Sanctuary claimed $957 of lodging costs for the program director’s
    attendance at the 2008 National Conference on Volunteering and Service held in
    Atlanta, GA, in June 2008. However, Sanctuary did not provide a copy of the hotel bill to
    support the actual cost of lodging. We questioned $957.

   In June 2008, Sanctuary incurred $2,087 of airfare costs for the program director’s
    attendance at the 2008 National Conference on Volunteering and Service held in
    Atlanta, GA, in June 2008. Of these costs, $1,889 was allocated to AmeriCorps and
    Sanctuary claimed these costs on the reimbursement request submitted to SGC. The
    remaining $198 was charged to employee advances. However, after Sanctuary
    submitted its reimbursement request to SGC, it reduced the AmeriCorps portion to
    $1,839 and increased the employee advance portion to $248. Sanctuary made a partial
    payment of $500 of the airfare on August 26, 2008, and paid the remaining balance
    $1,339 of airfare on September 16, 2008. Sanctuary did not adjust its reimbursement
    requests for this change. We questioned $50 ($1,889-$1,839).

   In June 2008, Sanctuary claimed $192 of office supplies. To support these costs, it
    provided two invoices which totaled $929. A note attached to one of the invoices
    indicated that $46 was allocable to AmeriCorps. We questioned $146, the difference
    between $192 claimed and the $46.

PY 2008-2009

   In March 2009, Sanctuary claimed $1,752, (nine days of lodging and meals and
    incidental expenses (M&IE) per diem) for the AmeriCorps assistant’s attendance at the
    Micronesian Youth Services Network Conference held on the island of Saipan.
    However, Sanctuary did not provide a copy of the hotel bill to support actual lodging
    expenses. In addition, we noted that the conference was four days long, but Sanctuary
    claimed nine days of per diem. We questioned $1,752.

   In March 2009, Sanctuary claimed $1,971, (nine days of lodging and M&IE per diem) for
    the AmeriCorps program director’s attendance at the Micronesian Youth Services
    Network Conference held on the island of Saipan. However, Sanctuary did not provide a
    copy of the hotel bill to support actual lodging expenses. In addition, we noted that the
    conference was four days long, but Sanctuary claimed nine days of per diem. We
    questioned $1,971.

   In June 2009, Sanctuary claimed a $360 conference registration fee for its executive
    director. However, Sanctuary did not provide an invoice to support the amount of the
    registration fee. We questioned $360.

   In June 2009, Sanctuary claimed $649 of travel costs for the program director’s
    attendance at an AmeriCorps conference held in San Francisco, CA. $222 of these
    costs were for lodging while traveling to the conference. Sanctuary provided a copy of
    the hotel confirmation for June 18 and June 19; however, the program director’s itinerary
    showed that the flight to San Francisco departed on the evening of June 19.
    Additionally, Sanctuary did not provide a copy of the hotel bill to support actual lodging
    expenses. We questioned $222.


                                            10
   Criteria

   OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General
   Principles, Paragraph 2,Factors affecting allowability of costs, states that costs must be
   adequately documented.

   In total we questioned $1,153($957+$50+$146) from PY 2007-2008 and $4,305
   ($1,752+$1,971+$360+$222) from PY 2008-2009, See Compliance Finding 1 (Exhibit B).

3. Expenditures claimed on the final reimbursement request for PY 2007-2008 and PY 2008-
   2009 were not supported by Sanctuary’s general ledger. In PY 2007-2008 the general
   ledger was $1,982 less than the final reimbursement request. In PY 2008-2009 the general
   ledger was $59 less than the final reimbursement request.

                                     Final          Accounting
                                Reimbursement         Report
                      PY           Request         Expenditures   Difference
                   2007-2008       $399,293          $397,311       $1,982
                   2008-2009       480,001           479,942            59

   Criteria

   45 Code of Federal Regulations (CFR) § 2543.21, Standards for financial management
   systems, Subsection (b), recipient financial management systems must provide for accurate,
   current, and complete disclosure of financial results of each Federally-sponsored program.

   We questioned $1,982 from PY 2007-2008 and $59 from PY 2008-2009. See Compliance
   Finding 1 (Exhibit B).

4. In October 2009, Sanctuary claimed as direct program costs $781 of accounting services for
   the development of its 2009 indirect cost rate. These costs should have been classified as
   administrative costs and therefore not billed in addition to the administrative rate. We
   questioned $781. See Compliance Finding 1 (Exhibit B).

   Criteria

   45 CFR § 2510.20, Administrative costs, administrative costs include general or centralized
   expenses of the organization and does not include program costs.

5. The December 2009 salary and benefit costs we sampled for one employee were not
   supported by a timesheet. We questioned $354 of unsupported salary and benefit costs.
   See Compliance Findings1 and 10 (Exhibit B).

   Criteria

   OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, Selected
   Items of Cost, Paragraph 8.m., Support of salaries and wages, states that the distribution of
   salaries and wages to awards must be supported by personnel activity reports that reflect an
   after-the-fact determination of actual activity of each employee.



                                              11
6. Sanctuary exited one PY 2007-2008 member and one PY 2008-2009 member for
   compelling personal circumstances, but did not document the basis for its determinations.

   Criteria

   45 CFR § 2522.230, Under what circumstances may an AmeriCorps participant be released
   from completing a term of personal service, and what are the consequences?, an
   AmeriCorps program may release a participant from completing a term of service for
   compelling personal circumstances as demonstrated by the participant, or for cause.
   Further, the program must document the basis for any determination that compelling
   personal circumstances prevent a participant from completing a term of service. Compelling
   personal circumstances include serious illness of the participant or the participant’s family
   member, death of a participant’s family member, and military service obligations.
   Compelling personal circumstances do not include leaving a program to obtain employment
   or to attend college.

                                                     Questioned
                                          Member     Education
                               PY           No.       Awards
                            2007-2008        1        $4,597
                            2008-2009        2         1,152

   We questioned prorated education awards of $5,749 ($4,597+$1,152) for these members.
   See Compliance Finding 2 (Exhibit B).

7. One PY 2007-2008 member had an unsigned timesheet for the pay period ending May 31,
   2008. We deducted the 66 service hours reported on this timesheet. After the deduction,
   the remaining hours did not qualify the member for an education award.

                                         Timesheet Hours                       Questioned
                      Member                                       Hours       Education
            PY          No.      Total    Unsigned   Adjusted     Required       Award
         2007-2008       9       1,700       66       1634         1,700         $4,725

   Criteria

   2007 AmeriCorps Special Provisions, Section IV, C.2, AmeriCorps Members, requires
   grantees to keep time-and-attendance records for all AmeriCorps members to document
   their eligibility for in-service and post-service benefits. Time-and-attendance records must
   be signed and dated by both the member and supervisor.

   We questioned the education award of $4,725 for this member. See Compliance Finding 4
   (Exhibit B).




                                               12
                                                                                        SCHEDULE B

                                  SERVE GUAM! COMMISSION
                          SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                                     UNIVERSITY OF GUAM
                                    AMERICORPS FORMULA
                                   AWARD NO. 05AFHGU001

                                           PY              PY          PY
                                        2007-2008       2008-2009   2009-2010      Total         Notes
Claimed Federal Costs                   $233,727        $440,815    $114,628      $789,170
Questioned Federal Costs:
   Unallocable travel costs                   $0          $4,903          $0         $4,903          1
   Unallocable consultant costs                0           2,750           0          2,750          2
   Living allowance
     paid to nonmembers                        0           1,710           0          1,710          3
   Administrative costs                        0             468           0            468          4
Total Questioned Federal Costs                $0          $9,831          $0         $9,831

Questioned Education Awards:
   Compelling personal circumstances      $7,441          $6,529          $0        $13,970          5
   Timekeeping discrepancies               5,975              0            0          5,975          6

Total Questioned Education Awards        $13,416          $6,529          $0        $19,945


1. UOG claimed $4,903 of travel costs for two PY 2008-2009 members’ attendance at the
   National Science Foundation Islands of Opportunity Alliance conference in Hilo, HI. The
   $4,903 of travel costs was comprised of $2,932 of airfare ($1,466 x 2) and $1,971 of per
   diem ($1,095 and $876). At the conference, the AmeriCorps members presented a paper
   about the efficiency of backyard gardening for families in Guam. According to the travel
   report submitted by one of the members, the members became involved in this project while
   working at the UOG’s AmeriCorps satellite office at the Guam Department of Agriculture
   (DOA). UOG believed this trip was allowable because it was related to the service
   performed by the two members at the satellite office. However, this activity was not
   allocable to UOG’s AmeriCorps program. Its mission was to provide tutoring, mentoring,
   and counseling services to current and prospective UOG students. In addition, this trip was
   not included in UOG’s approved budget for PY 2008-2009, which only included travel to
   Corporation-sponsored conferences and events.

    Criteria

    OMB Circular A-21,Cost Principles for Educational Institutions Subsection C.4., Allocable
    costs, states that a cost is allocable to a particular cost objective if the goods or services
    involved are chargeable or assignable to such cost objectives in accordance with relative
    benefits received.

    We questioned $4,903. See Compliance Finding 1 (Exhibit B).




                                                   13
2. UOG claimed $2,750 of consultant services for an assistant in UOG’s AmeriCorps office.
   These costs were originally recorded as miscellaneous stipends in UOG’s general ledger,
   but documentation supplied by UOG indicated that the costs were re-classified as consultant
   services per SGC instructions. During our review of these costs, we noted the following:

      The activities performed by the assistant appeared unrelated to UOG’s AmeriCorps
       office. He worked as an assistant from May 2009 through July 2009 and his timesheets
       indicated that he was a research assistant on an agriculture project, performing various
       types of research on fertilizer, agriculture, sustainable living, fishing, composting,
       vegetables, and pesticides.

      It appeared that the assistant was an AmeriCorps member who was not officially
       enrolled in the program. The file maintained in the AmeriCorps office for this person
       included an AmeriCorps enrollment form signed and dated by the member on May 15,
       2009. The file also included AmeriCorps eligibility documentation for citizenship, high
       school education, and criminal history checks. In addition, he completed an AmeriCorps
       member interview questionnaire, completed member timesheets, and attended a pre-
       service orientation and training.

   Criteria

   OMB Circular A-21,Cost Principles for Educational Institutions Subsection C.4., Allocable
   costs, states that a cost is allocable to a particular cost objective if the goods or services
   involved are chargeable or assignable to such cost objectives in accordance with relative
   benefits received.

   Because the activities performed by the assistant were unrelated to UOG AmeriCorps
   program’s mission, we questioned $2,750 of consultant services. See Compliance Finding
   1 (Exhibit B).

3. UOG claimed living allowance costs of $1,710 for stipends of $855 paid to two individuals
   who we found were neither enrolled in the Portal as AmeriCorps members, nor were they
   identified as employees involved with the UOG AmeriCorps program. UOG also claimed
   living allowance costs of $1,365 for stipends paid to a former member who worked as an
   assistant in the UOG AmeriCorps office.

   Criteria

   2007 AmeriCorps Special Provisions, Section IV I.1, Living Allowance Distribution, states
   that the living allowance is designed to help members meet necessary living expenses
   incurred while participating in the AmeriCorps Program.

   We questioned $1,710 of living allowance. However, we did not question the $1,365 of
   stipends because these costs would have been allowable if they were claimed as program
   costs. See Compliance Finding 1 (Exhibit B).

4. UOG claimed administrative costs of five percent in PY 2008-2009. Questioned costs in
   Notes 1 through 3 resulted in $468[($4,903+$2,750+1,710) x 5%)] of unallowable
   administrative costs in one program year. See Compliance Finding 1 (Exhibit B).



                                                14
5. UOG exited two PY 2007-2008 and two PY 2008-2009 members for compelling personal
   circumstances but did not have adequate documentation to support its determinations. It
   appeared these members were exited early because of illness, a death of a family member,
   and military service obligations.

   In addition, one of the two PY 2007-2008 members received a partial education award and
   was exited from the program on December 31, 2008. Documentation in the file for this
   member indicated that the member started service in November 2007 and left the program
   in July 2008 to perform military service. The member then resumed AmeriCorps service in
   October 2008 and served until December 31, 2008. On January 2, 2009, the member
   started working as a paid assistant in the AmeriCorps office. UOG did not document its
   determination of compelling personal circumstances for this member. As a result, we could
   not determine if the member was exited for compelling personal circumstances (military
   service), or withdrew from the program to take the paid AmeriCorps assistant position at
   UOG.

   Criteria

   45 CFR § 2522.230, Under what circumstances may an AmeriCorps participant be released
   from completing a term of personal service, and what are the consequences?, an
   AmeriCorps program may release a participant from completing a term of service for
   compelling personal circumstances as demonstrated by the participant, or for cause.
   Further, the program must document the basis for any determination that compelling
   personal circumstances prevent a participant from completing a term of service. Compelling
   personal circumstances include serious illness of the participant or the participant’s family
   member, death of a participant’s family member, and military service obligations.
   Compelling personal circumstances do not include leaving a program to obtain employment.

   We questioned prorated education awards of $13,970 for these members. See Compliance
   Finding 2 (Exhibit B).

                                                     Questioned
                                         Member      Education
                           PY              No.        Awards
                           2007-2008        3          $3,244
                           2007-2008        4           4,197
                           2008-2009        5           2,810
                           2008-2009        6           3,719
                              Total                   $13,970


   6. Timesheet hours did not agree with hours certified in the Corporation’s Portal for 10 of 18 (4
      from PY 2007-2008, 4 from PY 2008-2009, and 2 from PY 2009-2010) sampled members.
      UOG did not have procedures to verify timesheet accuracy. The hours for two PY 2007-
      2008 members were insufficient to qualify the members for education awards.




                                               15
                                                                   Hours            Questioned
                           Member      Portal     Timesheet      Required for       Education
            PY               No.       Hours        Hours          Award             Awards
            2007-2008        10        1,705        1,681           1,700             $4,725
            2007-2008        11          450          443             450              1,250

    Criteria

    2007 AmeriCorps Special Provisions, Section IV, C.2, AmeriCorps Members, requires
    grantees to keep time-and-attendance records for all AmeriCorps members to document
    their eligibility for in-service and post-service benefits. The Corporation uses time-and-
    attendance information in WBRS* to track member status, which forms the basis for
    calculating education awards.

    Further, 2007 AmeriCorps Special Provisions, Section IV, E.1, Program Requirements,
    states that to be eligible for an education award, the member must complete the term of
    service and hours, as follows:

       Full-time members must serve at least 1,700 hours; and
       Quarter-time members must serve at least 450 hours.

    Without procedures to verify timesheet accuracy, the potential exists that members may
    receive education awards to which they are not entitled. We questioned the education
    awards of $5,975 ($4,725+$1,250) for the two members who did not meet the minimum
    requirements to earn an education award. See Compliance Finding 4 (Exhibit B).




__________________________
*The Web-based Reporting System was replaced by the My AmeriCorps Portal in 2009.




                                                    16
                                                                                           SCHEDULE C

                                  SERVE GUAM! COMMISSION
                          SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                                     UNIVERSITY OF GUAM
                           AMERICAN RECOVERY AND REINVESTMENT ACT
                                   AWARD NO. 09RFHGU001


                                                                       Amount      Notes
              Claimed Federal Costs                                   $191,511
              Questioned Education Awards:
                Compelling personal circumstances                       $5,200      1
                Timekeeping discrepancies                                4,725      2
              Total Questioned Education Awards                         $9,925


1. UOG exited two ARRA members for compelling personal circumstances, but did not document
   its determination.

   Criteria

   45 CFR § 2522.230, an AmeriCorps program may release a participant from completing a term
   of service for compelling personal circumstances as demonstrated by the participant, or for
   cause. Further, the program must document the basis for any determination that compelling
   personal circumstances prevent a participant from completing a term of service.

   We questioned prorated education awards totaling $5,200 ($3,249+$1,951) for the two
   members (Member Nos. 7 and 8). See Compliance Finding 2 (Exhibit B).

2. Timesheet hours did not agree with hours certified in the Corporation’s Portal for two of seven
   sampled members. UOG did not have procedures to verify timesheet accuracy. The hours for
   one member were insufficient to qualify the member for an education award.

                                                         Hours        Questioned
                 Member     Portal    Timesheet        Required for   Education
                   No.      Hours       Hours            Award          Award
                   12       1,700       1,693             1,700         $4,725

   Criteria

   2007 AmeriCorps Special Provisions, Section IV, C.2, AmeriCorps Members, requires
   grantees to keep time-and-attendance records for all AmeriCorps members to document
   their eligibility for in-service and post-service benefits. The Corporation uses time-and-
   attendance information in WBRS to track member status, which forms the basis for
   calculating education awards.

   Further, 2007 AmeriCorps Special Provisions, Section IV, E.1, Program Requirements,
   states that, to be eligible for an education award, the member must complete the term of
   service and full-time members must serve at least 1,700 hours.

                                                  17
Without procedures to verify timesheet accuracy, the potential exists that members may
receive education awards to which they are not entitled. We questioned the education
award of $4,725 for the one member who did not meet the minimum requirements. See
Compliance Finding 4 (Exhibit B).




                                          18
                                                                                       SCHEDULE D

                                SERVE GUAM! COMMISSION
                        SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                            MICRONESIAN BUSINESS ASSOCIATION
                                  AMERICORPS FORMULA
                                 AWARD NO. 05AFHGU001


                                          PY              PY
                                                                                      Note
                                       2007-2008       2008-2009        Total
       Claimed Federal Costs            $201,221        $242,481     $443,702

       Questioned Federal Costs:
         Unallocable other costs               $0         $1,755        $1,755         1


1. MBA claimed $1,755 for the purchase of a portable microphone and speaker system.
   These items were purchased in August 2009, shortly before the end of PY 2008-2009 and
   the end of MBA’s AmeriCorps program. MBA stated that it intended to use the equipment
   for AmeriCorps training, but the decision to purchase it was made before the decision to end
   the program. These expenses were not included in MBA’s approved budget, and neither
   SGC nor MBA provided a budget modification for these expenses.

   Criteria

   OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General
   Principles, Paragraph 4. Allocable costs, states that a cost is allocable to a particular cost
   objective if the goods or services involved are chargeable or assignable to such cost
   objectives in accordance with relative benefits received.

   We questioned $1,755. See Compliance Finding 1 (Exhibit B).




                                                19
                                                                                 SCHEDULE E

                              SERVE GUAM! COMMISSION
                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                    STATE ADMINISTRATIVE AWARD NO. 05CAHGU001

                                                        Amount           Note
          Claimed Federal Costs                         $10,579
          Questioned Federal Costs:
            Unsupported costs                           $10,579           1



1.   During the agreed-upon procedures period of July 1, 2008, through June 30, 2009, SGC
     claimed $10,579 of costs on Award No. 05CAHGU001. SGC was unable to provide an
     expenditure report from its accounting system to support the $10,579 of expenditures
     claimed on its final financial status report for this award.

     However, SGC provided copies of two spreadsheets, which listed 27 transactions
     totaling $25,740. Each of the transactions was dated between January 2008 and May
     2008. In addition, SGC provided copies of documents supporting the transactions listed
     on the spreadsheet. While the supporting documents indicated that the expenditures
     were for SGC, none of the supporting documents identified these expenditures as
     specifically relating to this administrative award. Further, SGC did not provide
     documentation to demonstrate that the transactions listed on the spreadsheet were
     recorded as expenditures in its accounting system. We noted further that one of the
     transactions listed on the spreadsheet was also claimed under Award No.
     06PTHGU001. Because we could not verify that the transactions listed on the
     spreadsheet or the supporting documents were related to this award, we were unable to
     test the allowability of the transactions or documents.

     Criteria

     45 CFR §2541,200, Standards for financial management systems, subsection (b)
     requires recipient financial management systems to provide for accurate, current, and
     complete disclosure of financial results of each Federally-sponsored program.

     OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Governments,
     Attachment A, General Principles for Determining Allowable Costs, Paragraph C.1.,
     Factors affecting allowability of costs, states that costs must be adequately documented.

     We questioned $10,579. See Compliance Finding 1(Exhibit B).




                                            20
                                                                                     SCHEDULE F

                                  SERVE GUAM! COMMISSION
                         SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                        STATE ADMINISTRATIVE AWARD NO. 08CAHGU001

                                                           Amount           Note
              Claimed Federal Costs                       $238,197
              Questioned Federal Costs:
                Unsupported costs                           $3,647            1


1. SGC did not provide adequate supporting documentation for the following sampled
   transactions.

      SGC claimed $2,120 (2 x $265 x 4 days) of per diem costs for an SGC staff member and
       commissioner to attend the Executive Directors and State Service Commissioner
       training and meeting held in Arlington, VA, in September 2008. The per diem for each
       person was comprised of $201 of lodging per diem and $64 of M&IE per diem. SGC
       provided a copy of the “Travel Request and Authorization” form showing an authorized
       per diem amount of $1,060 for each traveler, copies of airline boarding passes and
       conference registration confirmations to show that the SGC staff member and
       commissioner attended the conference, and a copy of a page from the General Services
       Administration’s (GSA) domestic per diem website showing per diem rates for the
       Washington, DC, area. However, SGC did not provide a copy of the hotel bill to support
       that claimed lodging costs were incurred. We questioned $1,608 (4 x $201 x 2) of
       unsupported lodging costs.

      SGC claimed $2,599 ($297 x 125 percent x 7 days) of per diem costs for a SGC
       commissioner to attend the 2009 AmeriCorps State and National Meetings held in
       Arlington, VA, in September 2009. The per diem was comprised of $2,039 (7 days x
       $233 x 125 percent) of lodging per diem and $560 (7 days x $64 x 125 percent) of M&IE
       per diem. According to Guam travel law, the per diem rates for a member of the board
       of directors or commission are 125 percent of the basic per diem rates. SGC provided a
       copy of the “Travel Request and Authorization” form along with copies of airline boarding
       passes and a conference registration confirmation to show that the person attended the
       conference. However, SGC did not provide a copy of the hotel bill to support that
       claimed lodging costs were incurred. We questioned the $2,039 of unsupported lodging
       costs.

   Criteria

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment A, General Principles for Determining Allowable Costs, Paragraph C.1. Factors
   affecting allowability of costs, states that costs must be adequately documented.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment B, Selected Items of Cost, Paragraph 43.b., Lodging and subsistence, states
   that costs incurred for travel, including costs of lodging, shall be considered reasonable and
   allowable only to the extent such costs do not exceed charges normally allowed by a


                                               21
governmental unit in its regular operations as the result of the governmental unit’s written
travel policy.

Title 5. Guam Code Annotated, Chapter 23, Government Travel Law, §23104. Per Diem
Allowance, states an employee may receive an advance allowance for travel expenses.
Within ten days following the return from official travel, an employee may submit an itemized
statement of account supported by receipts, an affidavit, or both of actual expenses incurred
for lodging, meals, and travel actually incurred on official business during the period of
official travel. If the employee does not submit a statement of account, the employee shall
submit an itinerary of their official travel within ten days of their return. If the employee
received an excessive advance allowance, the employee shall reimburse the Government
the excessive amount at the time the itinerary was submitted.

SGC representatives stated at the exit conference that subsequent to our onsite visit, it had
revised its travel policies. SGC representative also stated at the time the costs were incurred
it did not require travelers to submit hotel receipts and it would have to check with each
traveler to obtain the hotel receipts. In total, we questioned $3,647 of unsupported lodging
costs. See Compliance Finding 1 (Exhibit B).




                                            22
                                                                                    SCHEDULE G

                                SERVE GUAM! COMMISSION
                        SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                             PDAT AWARD NO. 06PTHGU001


                                                          Amount           Note
            Claimed Federal Costs                         $36,485
            Questioned Federal Costs:
              Unsupported costs                            $5,756            1


1. SGC did not provide adequate supporting documentation for the sampled transactions listed
   below.

      SGC claimed $890 of per diem expenses (5 days x $178) for a staff member to attend
       the 2008 National Conference on Volunteering and Service held in Atlanta, GA, in June
       2008. The per diem was comprised of $645 (5 days x $129) of lodging per diem and
       $245 (5 days x $49) of M&IE per diem. SGC provided a copy of the “Travel Request
       and Authorization” form showing an authorized per diem amount of $890 and copies of
       airline boarding passes and a conference registration confirmation to show that the staff
       member attended the conference. However, SGC did not provide a copy of the invoice
       to support the actual cost of the lodging or any other documentation to support that
       claimed lodging costs were incurred. We questioned $645 of lodging costs.

      SGC claimed $1,060 of per diem expenses (4 days x $265) for a staff member to attend
       the Executive Directors and State Service Commissioner training meeting held in
       Arlington, VA, in September 2008. The per diem was comprised of $804 (4 days x
       $201) of lodging per diem and $256 (4 days x $64) of M&IE per diem. SGC provided a
       copy of the “Travel Request and Authorization” form showing an authorized per diem
       amount of $1,060 and copies of airline boarding passes and a copy of a conference
       registration fee to show that the staff member attended the conference. However, SGC
       did not provide a copy of the invoice to support the actual cost of the lodging or any
       other documentation to support that claimed lodging costs were incurred. We questioned
       $804 of unsupported lodging costs.

      SGC claimed $1,140 of per diem expenses (5 days x $228) for a staff member to attend
       the 2009 National Conference on Volunteering and Service held in San Francisco, CA,
       in June 2009. The per diem was comprised of $820 (5 days x $164) of lodging per diem
       and $320 (5 days x $64) of M&IE per diem. In addition, SGC claimed $370 for the
       registration fee to the conference. SGC provided a copy of the “Travel Request and
       Authorization” form showing an authorized per diem amount of $1,140 and a registration
       fee of $370, and copies of an invoice and itinerary for the airfare to attend the
       conference. However, SGC did not provide an invoice for the registration fee and a copy
       of the invoice to support the actual cost of the lodging or any other documentation to
       Support that claimed lodging costs were incurred. We questioned $1,190 of unsupported
       lodging and registration fee costs ($820+$370).

      SGC claimed $912 of per diem expenses (4 days x $228) for a staff member to attend
       the 2009 National Conference on Volunteering and Service held in San Francisco, CA,

                                               23
    in June 2009. The per diem was comprised of $656 (4 days x $164) of lodging per diem
    and $256 (4 days x $64) of M&IE per diem. SGC provided a copy of the “Travel
    Request and Authorization” form showing an authorized per diem amount of $912; and
    copies of airline boarding passes and a copy of conference registration confirmation to
    show that the staff member attended the conference. However, SGC did not provide a
    copy of the invoice to support the actual cost of the lodging or any other documentation
    to demonstrate that claimed lodging costs were incurred. We questioned $656 of
    unsupported lodging costs.

   SGC claimed $2,461 of travel expenses for a staff member’s attendance at the 2009
    Financial and Grants Management Institute Training held in New Orleans, LA, in
    November 2009. SGC provided a copy of the “Travel Request and Authorization”
    showing authorized travel expenses of $4,191 ($3,150 in airfare, $816 in per diem, and
    $225 of miscellaneous expenses), but did not provide invoices to support the $2,461 of
    expenses claimed. We questioned the $2,461 of unsupported travel costs.

Criteria

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A, General Principles for Determining Allowable Costs, Paragraph C.1, Factors
affecting allowability of costs states that costs must be adequately documented.

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment B, Selected Items of Cost, Paragraph 43.b, Lodging and Subsistence, states
that costs incurred for travel, including costs of lodging, shall be considered reasonable and
allowable only to the extent such costs do not exceed charges normally allowed by a
governmental unit in its regular operations as the result of the governmental unit’s written
travel policy.

Title 5. Guam Code Annotated, Chapter 23, Government Travel Law §23104, states an
employee may receive an advance allowance for travel expenses. Within ten days following
the return from official travel, an employee may submit an itemized statement of account
supported by receipts, an affidavit, or both of actual expenses incurred for lodging, meals,
and travel actually incurred on official business during the period of official travel. If the
employee does not submit a statement of account, the employee shall submit an itinerary of
their official travel within ten days of their return. If the employee received an excessive
advance allowance, the employee shall reimburse the government the excessive amount at
the time the itinerary was submitted.

SGC representatives stated at the exit conference that since our onsite visit, it had revised
its travel policies. SGC representative also stated at the time the costs were incurred it did
not require travelers to submit hotel receipts and it would have to check with each traveler to
obtain the hotel receipts. In total, we questioned $5,756 of unsupported lodging and travel
expenses. See Compliance Finding 1 (Exhibit B).




                                            24
                                                                                     SCHEDULE H

                                SERVE GUAM! COMMISSION
                        SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                             PDAT AWARD NO. 09PTHGU001


                                                           Amount            Note
            Claimed Federal Costs                          $29,533
            Questioned Federal Costs:
              Unsupported costs                              $9,677           1


1. SGC did not provide adequate supporting documentation for these sampled transactions:

      SGC claimed $2,079 (7 days x $297) of per diem costs for a staff member to attend the
       2009 AmeriCorps State and National Meetings held in Arlington, VA, in September 2009.
       The per diem was comprised of $1,631 (7 days x $233) of lodging per diem and $448 (7
       days x $64) of M&IE per diem. SGC provided a copy of the “Travel Request and
       Authorization” form along with copies of airline itinerary, a copy of the conference
       registration fee, and a copy of a page from the GSA’s domestic per diem website
       showing per diem rates for the Washington DC area. However, SGC did not provide a
       copy of the hotel bill to support the actual cost of the lodging or any other documentation
       to support that costs were incurred. We questioned $1,631 of unsupported lodging costs.

      SGC claimed $2,539 of airfare costs for a commissioner to attend the 2009 Financial
       and Grants Management Institute Training held in New Orleans, LA, in November 2009.
       SGC provided a copy of the “Travel Request and Authorization” form showing $3,150 of
       authorized airfare, but did not provide a copy of the invoice supporting the actual cost of
       the airfare. We questioned $2,539 of unsupported travel costs.

      SGC claimed $816 (4 days x $204) of per diem costs for a commissioner to attend the
       2009 Financial and Grants Management Institute Training held in New Orleans, LA, in
       November 2009. The per diem was comprised of $532 (4 days x $133) of lodging per
       diem and $284 (4 days x $71) of M&IE per diem. SGC provided a copy of the “Travel
       Request and Authorization” form showing an authorized per diem amount of $816 and
       copies of airline boarding passes and a copy of a receipt for the conference registration
       fee to show that the commissioner attended the conference. However, it did not provide
       a copy of the invoice to support the actual cost of the lodging or any other
       documentation to support that claimed costs were incurred. We questioned $532 of
       unsupported lodging costs.

      SGC claimed $1,632 ($816 x 2) of per diem costs for a staff member and commissioner
       to attend the 2009 Financial and Grants Management Institute Training held in New
       Orleans, LA, in November 2009. The per diem was comprised of $1,064 (4 days x $133
       x 2) of lodging per diem and $568 (4 days x $71 x 2) of M&IE per diem. SGC provided a
       copy of the “Travel Request and Authorization” form showing an authorized per diem
       amount of $816 for each traveler. However, it did not provide invoices for lodging or
       documentation demonstrating that the staff member and commissioner attended the
       conference. We questioned $1,632 of unsupported lodging and M&IE costs.


                                                25
   SGC claimed $350 of registration fees for two AmeriCorps members to attend the
    Micronesian Youth Services Network conference held in Pohnpei, Federal States of
    Micronesia, in April 2010. SGC provided a copy of the “Travel Request and
    Authorization” form showing an authorized miscellaneous amount of $175 for each
    traveler, but did not provide invoices for the registration fees. We questioned $350 of
    unsupported registration fees.

   SGC claimed $2,208 ($1,104 x 2) of airfare expenses for two AmeriCorps members to
    attend the Micronesian Youth Services Network conference in Pohnpei in April 2010.
    SGC provided a copy of the “Travel Request and Authorization” form showing airfare of
    $1,104, but did not provide a copy of the invoice supporting the actual cost of the airfare
    or evidence that travel was taken. We questioned $2,208 of unsupported airfare
    expenses for these two AmeriCorps members.

   SGC claimed $785 (5 days x $157) of per diem for an AmeriCorps member to attend the
    same Micronesian Youth Services Network conference. SGC provided a copy of the
    “Travel Request and Authorization” form showing an authorized per diem amount of
    $785, but did not provide invoices for lodging or documentation demonstrating that the
    member attended the conference. We questioned $785 of unsupported per diem costs.

Criteria

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A, General Principles for Determining Allowable Costs, Paragraph C.1. Factors
affecting allowability of costs, states that costs must be adequately documented.

OMB Circular A-87, Cost Principles for State, Local and Indian Tribal Government,
Attachment B, Selected Items of Cost, Paragraph 43.b, Lodging and Subsistence, states
that costs incurred for travel, including costs of lodging, shall be considered reasonable and
allowable only to the extent such costs do not exceed charges normally allowed by a
governmental unit in its regular operations as the result of the governmental unit’s written
travel policy.

Title 5. Guam Code Annotated, Chapter 23, Government Travel Law, §23104, states an
employee may receive an advance allowance for travel expenses. Within ten days following
the return from official travel, an employee may submit an itemized statement of account
supported by receipts, an affidavit, or both of actual expenses incurred for lodging, meals,
and travel actually incurred on official business during the period of official travel. If the
employee does not submit a statement of account, the employee shall submit an itinerary of
their official travel within ten days of their return. If the employee received an excessive
advance allowance, the employee shall reimburse the Government the excessive amount at
the time the itinerary was submitted.

SGC representatives stated at the exit conference that since our onsite visit, it had revised
its travel policies. SGC representative also stated at the time the costs were incurred it did
not require travelers to submit hotel receipts and it would have to check with each traveler to
obtain the hotel receipts. In total we questioned $9,677 of unsupported lodging and travel
expenses. See Compliance Finding 1 (Exhibit B).




                                             26
                                                                                         EXHIBIT B

                                      SERVE GUAM! COMMISSION

                                        COMPLIANCE RESULTS

Our agreed-upon procedures identified the compliance findings described below.

Finding 1.      SGC and three subgrantees did not have adequate controls to ensure
                claimed costs were allowable, allocable, and compliant with OMB
                accounting circulars.

Notes to Schedules A through H describe questioned costs of $71,847, which are summarized
in Exhibit A (see page 7). A questioned cost is an alleged violation of provision of law,
regulation, contract, grant, cooperative agreement, or other agreement or document governing
the expenditure of funds or a finding that, at the time of testing, such cost was not supported by
adequate documentation.

SGC

SGC could not support all costs claimed on Award No. 05CAHGU001, and did not ensure costs
were adequately accounted for in its accounting system.

          As discussed in Schedule E, SGC claimed $10,579 of costs on Award No.
           05CAHGU001 during the agreed-upon procedures period. SGC was unable to provide
           an expenditure report from its accounting system to support the $10,579 of expenditures
           claimed on its final financial status report for this award.

           However, SGC provided copies of two spreadsheets which listed 27 transactions totaling
           $25,740. The transactions were dated between January 2008 and May 2008. In
           addition, SGC provided copies of documents supporting the transactions listed on the
           spreadsheet. While the supporting documents indicated that the expenditures were for
           SGC, none of the documents identified these expenditures as specifically related to this
           administrative award. Further, SGC did not provide documentation to demonstrate that
           the transactions listed on the spreadsheet were recorded as expenditures in its
           accounting system. Finally, we noted that one of the transactions listed on the
           spreadsheet was also claimed under Award No. 06PTHGU001. Because we could not
           verify that the transactions listed on the spreadsheet or the supporting documents were
           related to this award, we were unable to test the allowability of the transactions or
           documents. We questioned $10,579.

          SGC recorded UOG’s October 2007 reimbursement request for PY 2006-2007 as
           expenses for PY 2007-2008. In addition, SGC recorded UOG’s November 2007 and
           December 2007 reimbursement requests for PY 2007-2008 as expenses for PY 2008-
           2009.

Criteria

45 CFR §2541.200, Standards for financial management systems, subsection (b) requires
recipient financial management systems to provide for accurate, current, and complete
disclosure of financial results of each Federally-sponsored program. Further, OMB Circular A-

                                                  27
87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment A, General
Principles for Determining Allowable Costs, Paragraph C.1. Factors affecting allowability of
costs, states that costs must be adequately documented.

As discussed in Schedules F through H, SGC did not provide adequate documentation to
support sampled travel costs.

SGC did not provide adequate documentation to support $3,647 of lodging costs on Award No.
08CAHGU001, $2,925 of lodging costs on Award No. 06PTHGU001, and $3,227 of lodging
costs on Award No. 09PTHGU001. SGC provided copies of the “Travel Request and
Authorization” forms showing authorized lodging amounts for each traveler. However, it did not
provide copies of the hotel bills to support the actual cost of the lodging or any other
documentation to demonstrate that the travelers at least incurred those amounts of lodging
expenses.

SGC did not provide adequate documentation to support $2,831 of airfare and registration fees
on Award No. 06PTHGU001 and $6,450 of airfare, registration fees, M&IE per diem, and other
expenses on Award No. 09PTHGU001. SGC provided copies of the “Travel Request and
Authorization” forms showing authorized airfare, registration fees, and per diem costs for each
traveler. However, SGC did not provide copies of invoices or documentation verifying that the
travelers attended the conferences.

Criteria

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment
A, General Principles for Determining Allowable Costs, Paragraph C.1. Factors affecting
allowability of costs, states that costs must be adequately documented.

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment
B, Selected Items of Cost, Paragraph 43.b, Lodging and Subsistence, states that costs incurred
for travel, including costs of lodging, shall be considered reasonable and allowable only to the
extent such costs do not exceed charges normally allowed by a governmental unit in its regular
operations as the result of the governmental unit’s written travel policy.

Title 5. Guam Code Annotated, Chapter 23, Government Travel Law, §23104 states an
employee may receive an advance allowance for travel expenses. Within ten days following the
return from official travel, an employee may submit an itemized statement of account supported
by receipts, an affidavit, or both of actual expenses incurred for lodging, meals, and travel
actually incurred on official business during the period of official travel. If the employee does not
submit a statement of account, the employee shall submit an itinerary of their official travel
within ten days of their return. If the employee received an excessive advance allowance, the
employee shall reimburse the government the excessive amount at the time the itinerary was
submitted.

Sanctuary

As discussed in Schedule A, Sanctuary did not ensure costs were adequately accounted for in
its accounting system. Expenditures claimed on the final reimbursement request for PY 2007-
2008 and PY 2008-2009 were not supported by its general ledger. In PY 2007-2008, the



                                                 28
general ledger was $1,982 less than the final reimbursement request. In PY 2008-2009, the
general ledger was $59 less than the final reimbursement request.

                                       Final            Accounting
                                   Reimbursement          Report
                         PY           Request          Expenditures   Difference
                       2007-2008     $399,293            $397,311       $1,982
                       2008-2009      480,001             479,942           59

Criteria

According to 45 CFR § 2543.21, Standards for financial management systems, Subsection (b),
recipient financial management systems must provide for accurate, current, and complete
disclosure of financial results of each Federally-sponsored program.

As discussed in Schedule A, Sanctuary claimed costs that were not in its approved budget and not
allocable to the AmeriCorps program.

          Seven sampled transactions from PY 2007-2008 were for office supplies that were not in
           Sanctuary’s approved budget. In addition, these items were purchased shortly before its
           2007-2008 program year ended on October 31, 2008.

          One sampled transaction from PY 2008-2009 and one sampled transaction from PY 2009-
           2010 were not allocable to the AmeriCorps programs.

          Three sampled PY 2007-2008 transactions and four sampled PY 2008-2009 transactions
           were not adequately supported.

          In October 2009, Sanctuary claimed as direct costs $781 of accounting services for the
           development of its 2009 indirect cost rate. These costs should have been classified as
           administrative costs and therefore not billed in addition to the administrative rate.

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, Selected
Items of Cost, Paragraph 4. Allocable costs, states that a cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such cost objectives
in accordance with relative benefits received.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, Selected
Items of Cost, Paragraph 2.,Factors affecting allowability of costs, states that costs must be
adequately documented.

45 CFR § 2510.20, Administrative costs, administrative costs include general or centralized
expenses of the organization and does not include program costs.

During planning SGC representatives stated that its procedures to ensure that costs were
allowable included performing detailed reviews of monthly subgrantee reimbursement.
However, it did not comment on the unallowable and unallocable costs described above.



                                                  29
University Of Guam

As discussed in Schedule B, UOG claimed costs that were not allocable to the AmeriCorps
program.

          UOG claimed $4,903 of travel costs for two PY 2008-2009 members’ attendance at the
           National Science Foundation conference in Hilo, HI. At the conference, the AmeriCorps
           members presented a paper about the efficiency of backyard gardening for families in
           Guam. UOG believed this trip was allowable because it was related to the service
           performed by the two members at its satellite office at the Guam DOA. This activity was not
           allocable to UOG’s AmeriCorps program because its mission was to provide tutoring,
           mentoring, and counseling services to current and prospective UOG students. In addition,
           the trip was not included in UOG’s approved budget for PY 2008-2009. The approved
           budget only included travel to Corporation-sponsored conferences and events.

          UOG claimed $2,750 of consultant services for an assistant in UOG’s AmeriCorps office.
           These costs were originally recorded as miscellaneous stipends in UOG’s general ledger,
           but documentation supplied by UOG indicated that the costs were re-classified as consultant
           services per SGC instructions. The activities performed by the assistant appeared unrelated
           to UOG’s AmeriCorps office. His timesheets indicated that he was a research assistant on
           an agriculture project. In addition, it appeared that the assistant was an AmeriCorps
           member who was not officially enrolled in the program. The file maintained in the
           AmeriCorps office for this person included AmeriCorps member forms, eligibility
           documentation, timesheets, and pre-service orientation and training documentation.

          In PY 2008-2009, UOG claimed as living allowance costs $1,710 paid to two individuals who
           were not enrolled as AmeriCorps members in the Portal, and were not identified as
           employees involved with the UOG AmeriCorps program.

          In PY 2008-2009, UOG also claimed as living allowance $1,365 in stipends paid to a former
           member who worked as an assistant in the UOG AmeriCorps office.

          In PY 2007-2008, UOG claimed $1,688 of living allowance paid to a PY 2008-2009 member.

Criteria

OMB Circular A-21 Cost Principles for Educational Institutions Subsection C.4., Allocable costs,
states that a cost is allocable to a particular cost objective if the goods or services involved are
chargeable or assignable to such cost objectives in accordance with relative benefits received.

2007 AmeriCorps Special Provisions, Section IV I.1. Living Allowance Distribution, states that the
living allowance is designed to help members meet necessary living expenses incurred while
participating in the AmeriCorps Program.

During planning SGC representatives stated that its procedures to ensure that costs were
allowable included performing detailed reviews of monthly subgrantee reimbursement.
However, it did not comment on the unallocable costs described above.




                                                  30
Micronesian Business Association

As discussed in Schedule D, MBA claimed $1,755 for the purchase of a portable microphone
and speaker system. These items were purchased in August 2009, shortly before the end of PY
2008-2009 and the end of MBA’s AmeriCorps program. MBA stated that it intended to use the
equipment for AmeriCorps training, but the decision to purchase it was made before the
decision to end the program. These expenses were not included in MBA’s approved budget
and neither SGC nor MBA provided a budget modification for these expenses.

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, Selected
Items of Cost, Paragraph 4, Allocable costs, states that a cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such cost objectives
in accordance with relative benefits received.

During planning SGC representatives stated that its procedures to ensure that costs were
allowable included performing detailed reviews of monthly subgrantee reimbursement.
However, it did not comment on the unallocable costs described above.

Recommendations: We recommend that the Corporation:

    1a. Calculate and seek to recover the appropriate amount of disallowed costs based on our
        costs questioned;

    1b. Calculate and seek to recover administrative costs related to the disallowed costs;

    1c. Instruct SGC to review applicable regulations and develop policies and procedures to
        ensure that its claimed costs are allowable, adequately documented, and allocable in
        accordance with applicable cost principles and regulations; and

    1d. Instruct SGC to review applicable regulations and develop policies and procedures to
        ensure that costs claimed by its subgrantees are allowable, adequately documented,
        and allocable in accordance with applicable cost principles and regulations.

SGC’s Response: SGC provided the following responses:

          It did not provide responses to each of the recommendations but stated that it had taken
           these recommendations under advisement. It will review applicable regulations and
           amend existing policies and procedures to ensure that costs claimed by subgrantees are
           allowable, adequately documented, and allocable in accordance with applicable cost
           principles and regulations. It will provide a copy of its finalized standard operating
           procedures to the Corporation before October 1, 2011.

Accountants’ Comments: Our responses follow:

          SGC did not respond to the recommendations or provide documentation to demonstrate
           that the $71,847 of Federal costs questioned in Schedules A through H were allowable,
           adequately documented, and allocable to Corporation awards. We continue to
           recommend that the Corporation calculate and seek to recover the appropriate amount
           of disallowed costs and the related administrative costs;

                                                  31
      Amending existing policies and procedures and providing a standard operating
       procedure for ensuring costs claimed by subgrantees are allowable, adequately
       documented, and allocable is responsive to our recommendation. SGC should also
       ensure that its standard operating procedure includes policies and procedures to check
       that its costs are allowable, adequately documented, and allocable;

      We recommend that the Corporation verify that the standard operating procedure has
       been provided by October 1, 2011, and that it includes policies and procedures for
       ensuring that the costs for SGC and its subgrantees are allowable, adequately
       documented, and allocable; and

      We recommend that the Corporation verify that the standard operating procedure has
       been implemented and is working as intended.

Finding 2.    Two subgrantees did not follow certain AmeriCorps requirements for
              members exited early due to compelling personal circumstances.

Sanctuary and UOG exited members for compelling personal circumstances but did not
document the basis for its determinations.

      As discussed in Schedule A, Sanctuary exited one PY 2007-2008 member and one PY
       2008-2009 member for compelling personal circumstances, but did not document its
       determinations.

      As discussed in Schedule B, UOG exited two PY 2007-2008 and two PY 2008-2009
       members for compelling personal circumstances, but did not have adequate documentation
       supporting its determinations. It appeared that these members were exited early because of
       illness, a death of a family member, and military service obligations. However, the program’s
       determination of the compelling circumstances was not documented.

       In addition, one of the PY 2007-2008 members received a partial education award and was
       exited from the program on December 31, 2008. Documentation in this member’s file
       indicated that the member started service in November 2007 and left the program in July
       2008 to perform military service. The member then resumed AmeriCorps service in October
       2008 and served until December 31, 2008. On January 2, 2009, the member started
       working as an assistant in the AmeriCorps office. UOG did not document its determination
       of compelling personal circumstances. As a result, we could not determine if the member
       was exited for compelling personal circumstances because of military service or withdrew
       from the program to take the paid AmeriCorps assistant position at UOG.

      As discussed in Schedule C, UOG exited two ARRA members for compelling personal
       circumstances, but did not have documentation of its determinations.

   Criteria

   According to 45 CFR § 2522.230, Under what circumstances may an AmeriCorps participant be
   released from completing a term of personal service, and what are the consequences?, an
   AmeriCorps program may release a participant from completing a term of service for compelling
   personal circumstances as demonstrated by the participant, or for cause. Further, the program
   must document the basis for any determination that compelling personal circumstances prevent

                                              32
   a participant from completing a term of service. Compelling personal circumstances include
   serious illness of the participant or the participant’s family member, death of a participant’s
   family member, and military service obligations. Compelling personal circumstances do not
   include leaving a program to obtain employment or to attend college.

   As shown in the table below, we questioned education awards of $24,919 for these members.

                                                                  Questioned
                                                     Member       Education
                   Subgrantee             PY           No.         Awards
                   Sanctuary           2007-2008        1           $4,597
                   Sanctuary           2008-2009        2            1,152
                   UOG                 2007-2008        3            3,244
                   UOG                 2007-2008        4            4,197
                   UOG                 2008-2009        5            2,810
                   UOG                 2008-2009        6            3,719
                   UOG                   ARRA           7            3,249
                   UOG                   ARRA           8            1,951
                                         Total                     $24,919


Recommendations: We recommend that the Corporation:

   2a. Disallow and, if already used, recover education awards made to members who did not
       meet the AmeriCorps requirements for compelling personal circumstances;

   2b. Require SGC to provide second-level approval to its subgrantees when verifying
       documentation and justification of partial education awards; and

   2c. Verify the implementation of SGC’s strengthened policies and procedures.

SGC’s Response: SGC did not concur with this finding, and did not provide responses to the
recommendations in the draft report.

Accountants’ Comments: Our responses follow:

      SGC did not provide reasons why it did not concur with the finding. In addition, it did not
       provide any documentation to demonstrate that the members with questioned
       educations awards had met the AmeriCorps requirements for compelling personal
       circumstances. We continue to recommend that the Corporation disallow and, if already
       used, recover education awards made to these members;

      We continue to recommend that SGC amend it policies and procedures to provide
       second-level approval to its subgrantees when verifying documentation and justification
       of partial education awards; and

      We continue to recommend that the Corporation verify the implementation of SGC’s
       strengthened policies and procedures for partial education awards and ensure that they
       are working as intended.



                                               33
Finding 3.     Subgrantees did not comply with AmeriCorps requirements for criminal
               history checks and NSOPR searches.

Sanctuary and UOG conducted Guam sex offender searches on its members instead of
nationwide NSOPR searches. In addition, MBA and UOG did not ensure that member criminal
history checks and NSOPR searches were conducted in a timely manner. Finally, Sanctuary
did not ensure NSOPR searches were conducted in a timely manner for all grant-funded staff.

Member NSOPR Searches

In PY 2007-2008, Sanctuary and UOG did not conduct NSOPR searches on its members as
required by AmeriCorps regulations. Sanctuary also did not conduct NSOPR searches on its
members during PY 2008-2009. Instead, Sanctuary and UOG conducted Guam sex offender
registry searches, which did not comply with AmeriCorps regulations because they were
searches of the local registry only. We did not question member costs and education awards for
sampled members at both subgrantees because, after the exit conference, SGC provided
copies of NSOPR searches for those members.

Criteria

45 CFR § 2540.202, What two search components of the National Service Criminal History Check
must I satisfy to determine an individual’s suitability to serve in a covered position?, requires
programs to conduct state criminal history checks and NSOPR searches.

45 CFR § 2540.203, When must I conduct a State criminal registry check and a NSOPR check
on an individual in a covered position?, states that criminal registry checks are to be conducted
on individuals who enrolled or were hired by the program after November 23, 2007. The
NSOPR check was required to be performed for individuals serving or who had applied to serve
in a covered position (member or grant-funded employee) on or after November 23, 2007.

45 CFR § 2540.205,What documentation must I maintain regarding a National Service Criminal
History Check for a covered position?, requires grantees to maintain results of checks unless
prohibited by state law, and to document in writing that results were considered when selecting
members for the program.

Timeliness of Member Criminal History Checks and NSOPR Searches

UOG conducted criminal history checks for three sampled members after the members started
service. In addition, UOG and MBA conducted NSOPR searches for 25 sampled members after
they started service. As shown in the following table, the number of days between member start
dates (and dates when members could have been working with vulnerable individuals) and check
dates ranged from 17 to 40 days for criminal history checks, and from 2 to 137 days for NSOPR
searches.




                                               34
                              Type of                    Number of          Days to
            Subgrantee    Check/Search           PY      Members        Perform Checks
             MBA          NSOPR              2007-2008      6                 30-35
             MBA          NSOPR              2008-2009      6                97-132
             UOG          Criminal History   2007-2008      3                17-40
             UOG          NSOPR              2008-2009      4               107-137
             UOG          NSOPR              2009-2010      1                   17
             UOG          NSOPR                ARRA         5                  2-15

We also noted other problems with the NSOPR searches.

          MBA did not conduct NSOPR searches for one sampled PY 2008-2009 member
           because the member left the program before the search was conducted.

          The NSOPR search results for five PY 2008-2009 UOG members were not dated.
           Therefore, we could not determine when the searches were conducted.

Criteria

45 CFR § 2540.205 requires grantees to document in writing that results were considered when
selecting members for the program.

Not obtaining criminal history checks for members with substantial recurring contact with
children and other vulnerable populations before a member’s start date could present a danger
to the individuals being served.

NSOPR Searches for Sanctuary Staff

In PYs 2007-2008, 2008-2009, and 2009-2010, Sanctuary claimed the personnel and benefit
costs of its grant-funded staff members, including the AmeriCorps program director, accounting
assistant, and program assistants. Sanctuary conducted criminal history checks and Guam sex
offender registry searches on these employees because they had recurring access to
vulnerable individuals. However, the Guam sex offender registry searches did not comply with
AmeriCorps regulations because they were searches of the local registry only.

Beginning in PY 2009-2010, Sanctuary conducted NSOPR searches on its members but not on
its staff members. Sanctuary was unaware of the NSOPR requirement for grant-funded staff.
We did not question the personnel and benefit costs for the staff members because Sanctuary
conducted NSOPR searches for the staff members on October 26 and 29, 2010.

Criteria

45 CFR § 2540.202, What two search components of the National Service Criminal History Check
must I satisfy to determine an individual’s suitability to serve in a covered position?, requires
programs to conduct state criminal history checks and NSOPR searches.

45 CFR § 2540.203, When must I conduct a State criminal registry check and a NSOPR check
on an individual in a covered position?, states that criminal registry checks are to be conducted
on individuals who enrolled or were hired by the program after November 23, 2007. The


                                                  35
NSOPR check was required to be performed for individuals serving or who had applied to serve
in a covered position (member or grant-funded employee) on or after November 23, 2007.

Recommendations: We recommend that the Corporation:

   3a. Provide guidance to SGC to ensure that its’ subgrantees conduct and retain
       documentation supporting member criminal history checks;

   3b. Provide guidance to SGC to ensure that its’ subgrantees conduct NSOPR searches in
       compliance with AmeriCorps regulations; and

   3c. Verify that SGC has implemented complete and effective criminal history check and
       NSOPR search procedures.

SGC’s Response: SGC concurred with this finding. It stated that it had modified its risk-based
monitoring policy to add subgrantee site visits that would be scheduled after the completion of
member recruitment and prior to the members’ first day of service.

Accountants’ Comments: Our responses follow:

      SGC did not explain how it would ensure that its subgrantees conduct and retain
       documentation supporting criminal history checks and NSOPR searches on members
       and grant-funded staff members who start the program late.

      We recommend that the Corporation verify that SGC has amended its policies and
       procedures to ensure its subgrantees conduct timely criminal history checks and
       NSOPR searches; and

      We recommend that the Corporation verify that SGC has implemented its amended
       policies and procedures and verify that they are working as intended.

Finding 4.    Subgrantees did not accurately record all timesheet hours, did not have
              procedures to verify timesheet accuracy or to ensure all timesheets were
              signed and, in some instances, timesheets did not support member
              eligibility for education awards.

We tested timesheets for 63 members. The timesheet hours were not always recorded accurately
in the Portal, and one member did not sign one timesheet.

Accuracy of Timesheet Hours

      Timesheet hours did not agree with hours certified in the Portal for 4 of 25 (1 from PY
       2007-2008, 1 from PY 2008-2009, and 2 from PY 2009-2010) sampled Sanctuary
       members.

      Timesheet hours did not agree with hours certified in the Portal for 4 of 13 (2 from PY
       2007-2008 and 2 from PY 2008-2009) sampled MBA members.

      Timesheet hours did not agree with hours certified in the Portal for 12 of 25 (4 from PY
       2007-2008, 4 from PY 2008-2009,2 from PY 2009-2010 and 2 from ARRA) sampled
       UOG members. UOG did not have procedures to verify timesheet accuracy. The hours

                                               36
           for two PY 2007-2008 members and one ARRA member were insufficient to qualify the
           members for education awards.

                                                                  Hours           Questioned
                             Member     Portal     Timesheet    Required for      Education
               PY              No.      Hours        Hours        Award             Awards
               2007-2008       10       1,705        1,681         1,700            $4,725
               2007-2008       11         450          443           450             1,250
               ARRA            12       1,700        1,693         1,700             4,725
               Total                                                               $10,700


Without procedures to verify timesheet accuracy, the potential exists that members may receive
education awards to which they are not entitled. We questioned the education awards of $10,700
for the three UOG members who did not meet the minimum requirements for earning the awards.

Criteria

2007 AmeriCorps Special Provisions, Section IV, C.2, AmeriCorps Members, requires grantees to
keep time-and-attendance records for all AmeriCorps members to document their eligibility for in-
service and post-service benefits. The Corporation uses time-and-attendance information entered
in the Portal (and formerly in the Corporation’s Web Based Reporting System) to track member
status, which forms the basis for calculating education awards.

2007 AmeriCorps Special Provisions, Section IV, E.1, Program Requirements, states that to be
eligible for an education award, the member must complete the term of service and hours:

               Full-time members must serve at least 1,700 hours; and
               Quarter-time members must serve at least 450 hours.

AmeriCorps requirements address policy but do not address specific timesheet procedures. It is,
however, good business practice to check the accuracy of hours recorded on timesheets.

Unsigned Timesheet

One PY 2007-2008 Sanctuary member had an unsigned timesheet for the period ending May 31,
2008. We deducted the 66 service hours reported on this timesheet. After the deduction, the
remaining hours did not qualify the member for an education award. We questioned the education
award of $4,725 for this member.

                                              Timesheet Hours           Hours       Questioned
                           Member                                     Required      Education
              PY             No.      Total    Unsigned    Adjusted   For Award       Award
           2007-2008          9       1,700       66        1,634       1,700         $4,725

Criteria

2007 AmeriCorps Special Provisions, Section IV, C.2, AmeriCorps Members, requires grantees
to keep time-and-attendance records for all AmeriCorps members to document their eligibility
for in-service and post-service benefits. Time-and-attendance records must be signed and
dated by both the member and supervisor.

                                                      37
We also identified weaknesses in how timesheets were prepared. A summary of timesheet
discrepancies by program year follows:

                                                                    Subgrantees
        Discrepancy                                     Sanctuary      UOG            MBA
        Timesheet missing member signatures                  1            0             0
        Timesheets signed in advance                         0            1             0
        Member signatures not dated                          0            1             0
        Corrections with whiteout                            0            1             0
        Corrections not initialed                            2            2             5
        12 or more service hours in a day                   11            0             0

Criteria

AmeriCorps requirements address policy but do not address specific timesheet procedures,
which is the responsibility of the grantee or subgrantee. It is, however, good business practice
to maintain original documents, initial changes, make corrections without whiteout, sign, and
date documents. As a result, accountability is maintained, and timesheets are consistent with
member and management intentions.

Recommendations: We recommend that the Corporation:

    4a. Disallow and, if already used, recover education awards of $15,425 made to members
        who did not serve the minimum required service hours;

    4b. Require SGC to strengthen its’ subgrantee monitoring procedures to ensure that proper
        member timesheets are maintained; and

    4c. Verify that SGC’s strengthened timesheet procedures have been implemented.

SGC’s Response: SGC provided the following responses:

It did not provide responses to each of the recommendations but stated that it had taken these
recommendations under advisement. It will review applicable regulations and amend existing
policies and procedures to ensure that costs claimed by subgrantees are allowable, adequately
documented, and allocable in accordance with applicable cost principles and regulations. It will
provide a copy of its finalized standard operating procedures before October 1, 2011.

Accountants’ Comments: Our responses follow:

          SGC did not state in its response whether it concurred with the finding and education
           awards questioned for the four members;

          SGC responded that it would review applicable regulations, amend existing policies and
           procedures, and develop standard operating procedures. This is responsive to our
           recommendations. However, we do not agree with SGC’s response that it will ensure
           costs claimed by subgrantees are allowable, adequately documented, and allocable in
           accordance with applicable cost principles and regulations. The $15,425 of education
           awards questioned in this finding are not included in claimed costs and are not subject to
           cost principles.

                                                   38
          We recommend that the Corporation verify that SGC has provided its standard operating
           procedure by October 1, 2011, and that it includes policies and procedures for ensuring
           that its subgrantees maintain proper member timesheets and comply with AmeriCorps
           requirements for time and attendance records; and

          We recommend that the Corporation verify that the standard operating procedure has
           been implemented and is working as intended.

Finding 5.      Subgrantees could not demonstrate that some members received
                performance evaluations, and all end-of-term evaluations did not meet
                AmeriCorps requirements.

UOG could not demonstrate that five members (one PY 2008-2009 member, three PY 2009-
2010 members, and one ARRA member) received end-of-term performance evaluations. In
addition, UOG could not demonstrate that ten members (two PY 2007-2008 members, one PY
2008-2009 member, two PY 2009-2010 members, and five ARRA members) received mid-term
performance evaluations.

As described below, some end-of-term evaluations tested at Sanctuary, UOG, and MBA did not
indicate if the members had completed the required number of service hours to be eligible for
education awards.

          End-of-term evaluations for seven MBA PY 2007-2008 members did not indicate if the
           members had completed the required number of service hours.

          End-of-term evaluations for three PY 2008-2009 evaluations tested at Sanctuary did not
           indicate if the members had completed the required number of hours.

          End-of-term evaluations for 15 UOG members (seven PY 2007-2008 members, six PY
           2008-2009 members, and two ARRA members) did not indicate if the members had
           completed the required number of hours.

Evaluations, particularly end-of-term reviews, are necessary to ensure that members are eligible
for additional service terms and education awards, and that grant objectives have been met.

Criteria

2007 AmeriCorps Special Provisions, Section IV, D.6, Performance Reviews, states that
grantees must conduct and keep records of at least a mid- and end-of-term written evaluation of
each member’s performance for full- and half-time members and an end-of-term written
evaluation for less than half-time members to document that the member has:

          Completed the required number of hours;
          Satisfactorily completed assignments; and
          Met other performance criteria communicated at the beginning of the service term.

According to 45 CFR § 2522.220(c), Participant Evaluation, a participant is not eligible for a
second or additional term of service and/or for an AmeriCorps education award without
satisfactory performance evaluations.


                                                 39
We identified other issues with mid- and end-of-term evaluations.

      The end-of-term evaluation for four PY 2007-2008 members (two Sanctuary members,
       one UOG member, and one MBA member) did not have the members’ signatures.

      The end-of-term evaluation for one MBA PY 2007-2008 member and seven PY 2008-
       2009 UOG members were completed before they finished their service.

      One PY 2009-2010 Sanctuary member signed their mid-term and end-of-term
       evaluations, but the evaluations were not completed by the supervisor.

      Seven PY 2008-2009 Sanctuary and seven UOG members (five PY 2007-2008
       members and two PY 2008-2009 members) signed end-of-term evaluations prior to
       completing their service.

Recommendations: We recommend that the Corporation:

   5a. Train SGC on requirements for member evaluations;

   5b. Ensure SGC strengthens its training and monitoring procedures for conducting and
       documenting member evaluations; and

   5c. Verify the implementation of SGC’s procedures for member evaluations.

SGC’s Response: SGC concurred with this finding and stated that it had amended its policy to
ensure that evaluations are documented prior to releasing subgrantee reimbursements.

Accountants’ Comments: Our responses follow:

      SGC’s response was responsive to the recommendation that it strengthen its monitoring
       procedures for conducting and documenting member evaluations. However, SGC did
       not explain how it would ensure that member evaluations include all of the elements
       required by the Corporation;

      We recommend that the Corporation verify that SGC has amended its policies and
       procedures for conducting and documenting member evaluations; and

      We recommend that the Corporation verify that SGC has implemented its amended
       policies and procedures for conducting and documenting member evaluations and verify
       that the policies and procedures are working as intended.

Finding 6.   Two subgrantees did not complete all member enrollment and exit forms and
             enter them into the Corporation’s reporting systems in accordance with
             AmeriCorps requirements.

Two subgrantees did not enter some member enrollment and exit forms into WBRS or the
Portal within 30 days after members started or ended their service terms. The number of late
instances for each situation is noted below:




                                              40
                                                                            Days to
                        Type of Form         Sanctuary         UOG          Approve
                 PY 2007-2008
                 Enrollment Form Approved          0              7           37-51
                 Exit Form Approved                1              6          62-260

                 PY 2008-2009
                 Enrollment Form Approved          0             7           46-146
                 Exit Form Approved                0             7           68-285

                 PY 2009-2010
                 Enrollment Form Approved          0              2        62 and 111
                 Exit Form Approved                2              4          51-129

                 ARRA
                 Enrollment Form Approved          0             0
                 Exit Form Approved                0             3           37-101

                 Total
                 Enrollment Form Approved          0            16
                 Exit Form Approved                3            20


Criteria

2007 AmeriCorps Special Provisions, Section IV, E.2, Notice to the Corporation’s National
Service Trust, states that the grantee must notify the Corporation’s National Service Trust within
30 days upon entering into a commitment with an individual to serve; upon a member’s
enrollment; and completion of lengthy or indefinite suspension from, or release from, a term of
service.

In addition, we noted other compliance issues with the member forms:

          The exit form for one Sanctuary PY 2009-2010 member was signed the same day the
           member started service.

          The eligibility for education award certification sections for one PY 2007-2008 Sanctuary
           member and one PY 2008-2009 UOG member were incomplete.

          One PY 2008-2009 UOG member did not have an exit form.

Criteria

2007 AmeriCorps Special Provisions, Section IV, J, Post Service Education Awards, requires
that in order for a member to receive a post-service education award from the National Service
Trust, the grantee must certify to the National Service Trust that the member is eligible to
receive the education benefit. Further, the grantee or anyone acting on the grantee’s behalf is
responsible for the accuracy of the information certified at the end-of-term certification.


                                                  41
2007 AmeriCorps General Provisions, Section V, E, Retention of Records, requires grantees to
retain all program records for three years from the date of submission of the final Financial
Status Report (FSR) now known as the Federal Financial Report (FFR). AmeriCorps
requirements do not specifically address procedures for preparing forms. It is, however, good
business practice to maintain original forms and to obtain all necessary signatures and dates.

Without timely completion and submission of enrollment and exit forms, the Corporation cannot
maintain accurate member records. This may also impact the member’s eligibility to receive an
education award.

Recommendations: We recommend that the Corporation:

   6a. Require SGC to strengthen its procedures to ensure proper completion of member
       enrollment and exit forms; and

   6b. Verify that member forms are properly completed and submitted in accordance with
       grant requirements.

SGC’s Response: SGC concurred with this finding and stated that it had amended its policy to
ensure that evaluations are documented prior to release of subgrantee reimbursements.

Accountants’ Comments: It appears that SGC erroneously repeated its response for Finding
5 and did not respond to Finding 6. We continue to recommend that the Corporation require
SGC to strengthen its procedures to ensure proper completion and submission of member
enrollment and exit forms.

Finding 7.    UOG did not follow AmeriCorps and Internal Revenue Service requirements
              for withholding FICA taxes from members’ living allowance payments.

UOG did not withhold FICA taxes (Social Security and Medicare) from member living allowance
payments, and did not provide members with W-2 forms as required by AmeriCorps regulations.
UOG did not believe the living allowance was taxable because it considered the allowance to be
a stipend, and because the Internal Revenue Service (IRS) has ruled that stipends are not
taxable. In addition, UOG stated that it had obtained a ruling from the Guam Department of
Revenue and Taxation that the living allowance was not taxable, but it did not produce
documentation of this ruling. As a result, it did not include FICA taxes for UOG students in its
approved budget narrative.

On October 7, 2010, UOG sent an inquiry to the IRS about the living allowance paid to its members.
It asked the IRS if students working at the university doing voluntary work as tutors are subject to
FICA taxes. The IRS responded in a December 22, 2010, letter as follows:

   Wages paid to U.S. citizens, resident aliens, and nonresident aliens employed in the
   U.S. possessions are generally subject to Social Security and Medicare taxes under the
   same conditions that would apply to U.S. citizens employed in the United States.
   However, certain types of services are exempt from Social Security and Medicare taxes.
   Examples of services exempt from Social Security and Medicare taxes include:
   Compensation paid to students employed by a school, college, or university if the
   student is enrolled and regularly attending classes at such school, college, or university.



                                               42
    FICA (Social Security and Medicare) taxes do not apply to service performed by
    students employed by a school, college, or university where the student is pursuing a
    course of study. Whether the organization is a school, college, or university depends on
    the organization’s primary function. In addition, whether employees are students for this
    purpose requires examining the individual’s employment relationship with the employer
    to determine if employment or education is predominant in the relationship.

Because AmeriCorps members are volunteers and not employees of the University, and
considering that the IRS ruling did not specifically exempt FICA for AmeriCorps members, we
contend that UOG should withhold FICA taxes from members’ stipends. In addition, UOG may be
required to pay the unpaid taxes, plus interest, potentially amounting to approximately $110,420 for
the period covered by the agreed-upon procedures.

                                            Employer             Member
                                              Share                Share
                                            FICA Tax             FICA Tax              Total
      Program             Living             Liability           Liability           FICA Tax
        Year            Allowance            (7.65%)              (7.65%)            Liability
  2007-2008              $203,269            $15,550              $15,550             $31,100
  2008-2009                253,946            19,427                19,427             38,854
  ARRA                     264,480            20,233                20,233             40,466
  Total                  $721,695            $55,210              $55,210            $110,420

Criteria

2007 AmeriCorps Special Provisions, Section IV, I.3.b, FICA (Social Security and Medicare taxes),
states that unless the grantee obtains a FICA exemption from IRS, it is required to pay FICA for any
member receiving a living allowance. Additionally, the grantee is required to withhold 7.65 percent
from a member’s living allowance.

2007 AmeriCorps Special Provisions, Section IV, I.3.c, Income Taxes, requires grantees to withhold
Federal personal income taxes from member living allowances, require members to complete a W-
4 form at the beginning of each service term, and provide a W-2 form to the members at the close
of the tax year.

Recommendations: We recommend that the Corporation:

    7a. Require SGC to implement policies and procedures to ensure UOG withholds and remits
        employer and member shares of FICA taxes to the IRS.

    7b. Require SGC to implement procedures to ensure UOG provides W-2 forms to members
        at the close of the tax year; and

    7c. Verifies implementation of the procedures.

SGC’s Response: SGC provided the following responses:

It did not provide responses to each of the recommendations. It will review applicable
regulations and amend existing policies and procedures to ensure that costs claimed by
subgrantees are allowable, adequately documented, and allocable in accordance with

                                               43
applicable cost principles and regulations. It will provide a copy of its finalized standard
operating procedures before October 1, 2011.

Accountants’ Comments: Our responses follow:

          SGC’s response did not address our recommendations. It stated that it will ensure costs
           claimed by subgrantees are allowable, adequately documented, and allocable in
           accordance with applicable cost principles. While grantees should have such
           procedures to meet those criteria, these specific procedures are not applicable to this
           finding. This finding discusses UOG’s noncompliance with requirements, listed in the
           AmeriCorps provisions, for withholding FICA taxes from member living allowances.

          We recommend that the Corporation verify that SGC has provided the standard
           operating procedure by October 1, 2011, and verify that the standard operating
           procedure includes policies and procedures for ensuring all subgrantees withhold and
           remit employer and member share of FICA taxes to the IRS and provide W-2 forms to
           members at the close of the tax year; and

          We recommend that the Corporation verify that the standard operating procedure has
           been implemented and is working as intended.

Finding 8.      SGC and its subgrantees did not follow certain AmeriCorps requirements.

SGC and its subgrantees did not comply with requirements relating to financial reporting, pre-
service orientation training, other member training and fundraising, member agreements and
member activities.

Reporting

SGC did not submit FSRs (now FFRs) and progress reports in accordance with applicable
regulations. It did not submit one FFR for the period July 1, 2008, through December 31, 2008,
and did not submit nine reports in a timely manner.

                                                  Number
                                Award No.        of Reports     Days late
                              05CAHGU001              1            31
                              05AFHGU001              1             4
                              06PTHGU001              1             2
                              08CAHGU001              1             3
                              09PTHGU001              1             3
                              09RFHGU001              4            3-4

Criteria

Provisions for State Administrative, Program Development and Training, and Disability
Placement Grants and American Recovery and Reinvestment Act, require grantees to adhere to
the reporting requirements established by the Corporation.




                                                 44
Pre-Service Orientation Training

UOG did not retain agendas for any of the pre-service orientation training sessions it held during the
agreed-upon procedures period. As a result, we could not determine if the pre-service orientation
sessions provided to members covered AmeriCorps requirements. In addition, UOG did not retain
sign-in sheets for the PY 2007-2008 and 2008-2009 pre-service orientation training sessions.

As an alternative procedure, we examined the timesheets of the sampled PY 2007-2008 and 2008-
2009 members to determine if they recorded their attendance at orientation training. We could not
verify that one PY 2008-2009 member attended pre-service orientation training because the
member did not record her attendance on the timesheet.

Criteria

2007 AmeriCorps Special Provisions, Section IV, D, Training, Supervision, and Support, Subsection
3, states that grantees must conduct orientation for members and comply with any pre-service
orientation or training required by the Corporation. In addition, grantees are required to provide
members with training, skills, knowledge, and supervision necessary to perform tasks required in
their assigned project positions, including specific training in a particular field and background
information on the community served. Orientation should cover member rights and responsibilities,
prohibited activities Drug-Free Workplace Act requirements, suspension and termination from
service, grievance procedures, sexual harassment, and other non-discrimination issues.

2007 AmeriCorps General Provisions, Section V, E, Retention of Records, requires grantees to
retain all program records for three years from the date of submission of the final FSR (now
known as the Federal Financial Report).

Member Training and Fundraising

SGC did not provide documentation to demonstrate that no more than 20 percent of member
service hours at Sanctuary in PY 2008-2009 were spent on training activities, and no more than
10 percent of member service hours in PY 2008-2009 were spent on fundraising activities.

Criteria

45 CFR § 2520.50, How much time may AmeriCorps members in my program spend in
education and training activities? states no more than 20 percent of the aggregate of all
AmeriCorps member service hours in a program year, as reflected in the member enrollment in
the National Service Trust, may be spent in education and training activities.

45 CFR § 2520.45, How much time may an AmeriCorps member spend fundraising? states an
AmeriCorps member may spend no more than 10 percent of his or her originally agreed-upon
term of service, as reflected in the member enrollment in the National Service Trust, performing
fundraising activities.

2007 AmeriCorps General Provisions, Section V, E, Retention of Records, requires grantees to
retain all program records for three years from the date of submission of the final FSR (now the
FFR).




                                               45
Living Allowance

MBA did not always distribute the member living allowances in equal increments. It prorated
payments for members who started after a pay period had begun or left before a pay period
ended, and did not perform service on all scheduled days during a pay period.

Criteria

2007 AmeriCorps Special Provisions, Section IV, I.1, Living Allowance Distribution, states
programs must provide regular living allowance payments from the member’s start date and
payments should not fluctuate based on the number of hours served in a particular time period.

Member Contract

One sampled PY 2007-2008 UOG member and one PY 2009-2010 UOG member started service
before signing the member contract. Members are not considered enrolled in a program until a
contract is signed.

Criteria

2007 AmeriCorps Special Provisions, Section IV, C.1, Member Enrollment Procedures,
subsection b, stipulates that AmeriCorps programs are required to sign a member contract with
an individual or otherwise enter a legally enforceable commitment as defined by state law
before enrolling a member.

Member Activities

One sampled PY 2008-2009 member interviewed at UOG stated that, as a part of her service
hours, she assisted at bimonthly state dinners held by the First Lady of Guam. Those duties
included assisting the chef and washing dishes. The member served up to four hours at each
dinner event and recorded her hours as Direct Service under the Team Objectives section on
her AmeriCorps timesheet. Performing personal services, such as assisting chefs and washing
dishes, was not an approved service activity. In addition, the activities described by the
member were inconsistent with UOG’s program application narrative. This type of activity could
also be perceived as an endorsement of an elected official, which is prohibited by AmeriCorps
regulations.

We calculated that the member spent approximately 96 hours (24 dinners x 4 hours per dinner)
during her November 2008 through October 2009 service term assisting at the dinners. After
deducting these hours from hours certified in the Portal, the remaining hours qualified the
member for an education award.

                                         Timesheet Hours          Hours
                                                                Required
                       PY        Total    Deducted   Adjusted   For Award
                    2008-2009    1,800       96       1,704       1,700




                                               46
Criteria

Section A. Executive Summary of UOG’s PY 2007-2008 program application narrative,
members participating in the UOG program were to provide tutoring, mentoring, and counseling
services to students and prospective students at the University of Guam.

45 CFR § 2520.65,What activities are prohibited in AmeriCorps subtitle C programs?, states
while accumulating service or training hours or otherwise performing activities supported by the
AmeriCorps program, members may not participate or endorse events or activities that are likely
to include advocacy for or against political parties, political platforms, political candidates,
proposed legislation, or elected officials.

Recommendations: We recommend that the Corporation:

    8a. Require SGC to strengthen its policies and procedures to ensure that it complies with
        AmeriCorps requirements for financial reporting and verify implementation;

    8b.Require SGC to strengthen its policies and procedures to ensure that its’ subgrantees
       comply with AmeriCorps requirements for pre-service orientation training and verify
       implementation;

    8c. Require SGC to strengthen its policies and procedures to ensure that its’ subgrantees
        comply with AmeriCorps requirements for other member training and verify
        implementation;

    8d. Require SGC to strengthen its policies and procedures to ensure that its’ subgrantees
        comply with AmeriCorps requirements for fundraising and verify implementation;

    8e. Require SGC to strengthen its policies and procedures to ensure that its’ subgrantees
        comply with AmeriCorps requirements for living allowance and verify implementation;

    8f. Require SGC to strengthen its policies and procedures to ensure that its’ subgrantees
        comply with AmeriCorps requirements for member agreements and verify
        implementation; and

    8g. Require SGC to strengthen its policies and procedures to ensure that its’ subgrantees
        comply with AmeriCorps requirements for prohibited member activities and verify their
        implementation.

SGC’s Response: SGC provided the following responses:

          It concurred with the finding;

          It did not provide responses for each of the recommendations; and

          It will review applicable regulations and amend existing policies and procedures to
           ensure it is in compliance with AmeriCorps provisions and requirements. It will provide a
           copy of the finalized standard operating procedure before October 1, 2011.

Accountants’ Comments: Our responses follow:


                                                  47
           We recommend that the Corporation verify that SGC has provided the standard
            operating procedure by October 1, 2011, and verify that it includes policies and
            procedures for financial reporting, pre-service orientation training, other member training
            and fundraising, member agreements and member activities; and

           We recommend that the Corporation verify that the standard operating procedure has
            been implemented and is working as intended.

Finding 9.        Sanctuary did not ensure reimbursements received from SGC were
                  disbursed in a timely manner.

SGC required its subgrantees to submit monthly invoices to SGC for reimbursement.
Subgrantees were required to attach copies of monthly periodic expense reports (PERs) which
showed by category budgeted expenses, current period expenses, and year-to-date expenses.
SGC then reviewed the invoices and PERs and assisted the Guam Department of
Administration in processing the reimbursements.

Sanctuary did not ensure it minimized the time between its receipt of funds from SGC for the
payment of its reimbursement requests and its disbursement of the funds to its vendors for 16
sampled transactions totaling $26,033. As shown in the table on the following page, 54 to 389
days elapsed between the date of SGC’s payment to Sanctuary and Sanctuary’s check date.

      Reimbursement                                          Date of
         Request            PY/Sample        Sampled          SGC          Sanctuary         Days         Check
           Date                No.           Amount         Payment        Check Date       Elapsed      Amount
         06/30/08            07-08/10          $192         08/22/08        09/15/09          389        $4,138
         10/19/08            07-08/13          3,901        12/02/08        09/30/09          302         3,901
                                                                            10/14/09          316         4,160
           10/19/08          07-08/14           5,160       12/02/08
                                                                            11/14/09          347         5,705
                                                                            09/15/09          287         2,076
           10/28/08          07-08/15           2,759       12/02/08
                                                                            10/14/09          316         2,223
           10/28/08          07-08/16           2,216       12/02/08        03/18/09          106          450*
           10/28/08          07-08/17           2,395       12/02/08        11/14/09          347         5,705
                                                                            10/14/09          316         2,223
           10/31/08          07-08/18           4,803       12/02/08
                                                                            11/14/09          347         4,000
           09/20/08          07-08/20            649        10/17/08        03/18/09          152           649
           11/27/08           08-09/2            870        12/19/08        09/30/09          285         1,102
           12/31/08           08-09/3            435        02/02/09        09/15/09          225           493
           04/15/09          08-09/11          1,007        05/14/09        12/23/09          223         4,360
           04/15/09          08-09/12            350        05/14/09        10/14/09          153           558
           06/13/09          08-09/18            546        07/23/09        10/14/09           83           686
           09/18/09          08-09/20            495        10/29/09        12/22/09           54           495
           11/30/09           09-10/4             95        12/21/09        06/11/10          172           270
           12/04/09           09-10/6            160        01/21/10        07/15/10          175           240
                             Total           $26,033
*
    Sanctuary did not provide any documentation to show that the remaining balance of $1,766 had been paid.




                                                          48
Criteria

SGC’s subgrant contracts with Sanctuary for PYs 2007-2008, 2008-2009, and 2009-2010,
required it to comply with the requirements of OMB Circular A-110, Uniform Administrative
Requirements for Grants and Agreements With Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations. Subpart C, Post Award Requirements, 22.Payment states:

    (a) Payment methods shall minimize the time elapsing between the transfer of funds
        from the United States Treasury and the issuance or redemption of checks, warrants,
        or payment by other means by the recipients. Payment methods of State agencies
        or instrumentalities shall be consistent with Treasury-State CMIA agreements or
        default procedures codified at 31 CFR part 205.

    (b) Recipients are to be paid in advance provided they maintain and demonstrate the
        willingness to maintain: (1) written procedures that minimize the time elapsing
        between the transfer of funds and disbursement by the recipient, and (2) financial
        management systems that meet the standards for fund control and
        accountability…Cash advances to recipient organization shall be limited to the
        minimum amounts needed and be timed to be in accordance with the actual,
        immediate cash requirements of the recipient organization in carrying out the
        purpose of the approved program or project. The timing and amount of cash
        advances shall be as close as is administratively feasible to the actual
        disbursements by the recipient organization for direct program or project costs and
        the proportionate share of any allowable indirect costs.

SGC representatives did not realize that Sanctuary had not paid for the expenses, and stated
that they would begin requiring all subgrantees to submit cancelled checks with reimbursement
requests as evidence of payment

Recommendations: We recommend that the Corporation:

    9a. Provide guidance to SGC to review applicable regulations and develop policies and
        procedures to ensure that the time elapsing between the receipt and disbursement of
        funds is minimized;

    9b. Verify the implementation of SGC’s procedures; and

    9c. Require SGC to calculate and recover any interest earned on the payments that were
        not disbursed by Sanctuary in a timely manner.

SGC’s Response: SGC provided the following responses:

          It did not provide a response for each of the recommendations; and

          It will review applicable regulations and amend existing policies and procedures to
           ensure that costs claimed by subgrantees are allowable, adequately documented, and
           allocable in accordance with applicable cost principles and regulations. It will provide a
           copy of its finalized standard operating procedures before October 1, 2011.



                                                   49
Accountants’ Comments: Our responses follow:

      We recommend that the Corporation verify that SGC has provided the standard
       operating procedure by October 1, 2011, and verify that it includes policies and
       procedures for ensuring that its subgrantees minimize the time elapsing between the
       receipt and disbursement of funds; and

      We recommend that the Corporation verify that the standard operating procedure has
       been implemented and is working as intended.

Finding 10. UOG’s timekeeping system did not comply with Federal requirements, and
            Sanctuary could not provide support for labor costs.

Timesheets used by the UOG AmeriCorps program director and assistants did not support sampled
personnel costs charged to the AmeriCorps Formula award (Award No. 05AFHGU001) and
AmeriCorps Recovery award (Award No. 09RFHGU001), and did not account for all activities
worked on by those employees.

AmeriCorps Formula Award

      In February 2010, UOG claimed $14,165 of personnel costs for the former AmeriCorps
       program director. UOG provided her October through December 2009 timesheets as
       support for these costs. The program director and supervisor signed the timesheets but
       their signatures were not dated. While she recorded in the job description section of the
       timesheet that she opened and directed the UOG AmeriCorps center, the timesheets did not
       indicate that she specifically worked on the AmeriCorps Formula award. Instead, she
       recorded her hours as either “ADMIN” or “PDAT” hours.

      In February 2010, UOG claimed $741 of personnel costs for one of five AmeriCorps
       assistants. UOG provided her February 2010 timesheet as support for these costs. The
       assistant and supervisor signed the timesheet but their signatures were not dated. While
       she recorded in the job description section of the timesheet that she assisted the UOG
       AmeriCorps center, the timesheet did not indicate that she worked on the AmeriCorps
       Formula award. Instead, she recorded her hours as either “ADMIN” or “PDAT” hours.

AmeriCorps Recovery Act Award

      In January 2010, UOG claimed $9,341($8,903+$438) of personnel costs for four
       AmeriCorps assistants. UOG provided their December 2009 and January 2010 timesheets
       as support for these costs. The assistants and supervisor signed the timesheets, but their
       signatures were not dated. While the assistants recorded in the job description section of
       the timesheets that they assisted the UOG AmeriCorps center, they did not indicate that
       they worked on the AmeriCorps Recovery Act award. Instead, the members recorded their
       hours as either “ADMIN” or “PDAT” hours.

We asked UOG’s current program director to explain the meaning of “ADMIN” and “PDAT.” She
explained that “ADMIN” hours were for regular hours administering the AmeriCorps program and
“PDAT” hours were for hours spent in professional development and training. UOG representatives
did not realize that the “ADMIN” and “PDAT” headings on the sample timesheet provided by SGC to
UOG were to distinguish hours worked by SGC on its State Administrative and PDAT awards.


                                              50
We noted while reviewing the files for the sampled AmeriCorps Recovery Act members that the
former program director signed their forms and timesheets. However, it appeared from reviewing
UOG’s general ledger reports that none of her personnel costs were charged to the AmeriCorps
Recovery Act award. UOG’s accounting department staff stated that all of her personnel costs
were charged to the AmeriCorps Formula award, and that none were charged to the AmeriCorps
Recovery Act award because the only personnel costs included in the approved budget were for the
AmeriCorps assistants. While observing interactions between the current AmeriCorps program
director and assistants, we noted that there were no controls in place that would have prevented the
assistants funded under the Recovery Act award from working on the Formula award.

We did not question any personnel costs for this issue because the sampled employees worked
only on AmeriCorps awards. UOG representatives stated that this problem occurred because prior
to receiving the Recovery Act award, they only had one Federal award for AmeriCorps.

Criteria

OMB Circular A-21, Cost Principles for Educational Institutions, Paragraph J.10. Compensation for
personal services requires salary distributions based on personnel activity reports for employees
working on multiple activities.

          The activity reports will reflect the distribution of activity expended by the employees.

          The reports will reflect an after the fact reporting of the percentage distribution of activity of
           employees.

          Charges may initially be estimates made before the services are performed, but charges
           must be promptly adjusted if the activity records indicate significant differences.

          The reports must be signed by the employee or supervisor with firsthand knowledge of the
           employee’s activities.

OMB Circular A-21, Cost Principles for Educational Institutions, Paragraph A.2., Policy Guides,
Subsection e., states that the accounting practices of individual colleges and universities must
support the accumulation of costs as required by the principles, and must provide for adequate
documentation to support costs charged to sponsored agreements.

Sanctuary could not provide support for the December 2009 salary and benefit costs of $354 for
one sampled employee. Sanctuary did not provide the timesheet for this employee.

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, Selected Items of
Cost, Paragraph 8.m., Support of salaries and wages, states that the distribution of salaries and
wages to awards must be supported by personnel activity reports that reflect an after-the-fact
determination of actual activity of each employee.

Recommendations: We recommend that the Corporation:

    10a.Require SGC to strengthen its policies and procedures to ensure that UOG’s
        timekeeping system complies with OMB Circular A-21 and UOG timekeeping policies
        and procedures;

                                                     51
    10b. Require SGC to strengthen its policies and procedures to ensure that timesheets
         supporting Sanctuary personnel costs are retained; and

    10c. Verify implementation of SGC’s policies and procedures.

SGC’s Response: SGC provided the following responses:

          It concurred with the finding;

          It did not provide responses for each of the recommendations; and

          It will review applicable regulations and amend existing policies and procedures to
           ensure it is in compliance with AmeriCorps provisions and requirements. It will provide a
           copy of the finalized standard operating procedure before October 1, 2011.

Accountants’ Comments: Our responses follow:

          We recommend that the Corporation verify that SGC has provided the standard
           operating procedure by October 1, 2011, and verify that it includes policies and
           procedures for ensuring that its subgrantee timekeeping systems comply with applicable
           OMB circulars, and that subgrantee policies and procedures and timesheets supporting
           claimed personnel costs are retained; and

          We recommend that the Corporation verify that the standard operating procedure has
           been implemented and is working as intended.

Finding 11. SGC did not document its reviews of subgrantees’ OMB Circular A-133
            Single Audit reports.

We reviewed the monitoring files for all SGC subgrantees. Two subgrantees, Sanctuary and
UOG, received annual Single Audits during the review period. SGC maintained copies of the
Single Audits in its subgrantee application files and provided copies of the Single Audit reports
reviewed during subgrantee selection for PYs 2007-2008, 2008-2009, and 2009-2010. SGC
had copies of the Sanctuary Single Audits reviewed but only had a copy of the UOG report
reviewed for PY 2007-2008. SGC representatives stated that the reports for PY 2008-2009 and
2009-2010 could be located in the Guam Department of Labor’s files. SGC stated that it
reviewed the subgrantee audit reports and, if applicable, the findings of any related
management letters, but did not document the results of its reviews, and did not perform
reconciliations of subgrantee payments to report expenditures.

Criteria

OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations,
Subpart D.400 (d), Pass-through entity responsibilities, requires grantees to ensure that
subrecipients undergo audits meeting requirements of the circular.

45 CFR § 2541.260(b)(4), recipients must consider whether subrecipient audits necessitate
adjustment of the grantee’s own records.



                                                  52
Recommendations: We recommend that the Corporation:

   11a. Require SGC to develop policies and procedures to ensure that all OMB Circular A-133
        audit reports and management letters are maintained, necessary reconciliations are
        performed, and results of these procedures are documented.

   11b. Verify implementation of SGC’s policies and procedures.

SGC’s Response: SGC provided the following responses:

      It concurred with the finding;

      It did not provide responses for each of the recommendations; and

      It will review applicable regulations and amend existing policies and procedures to
       ensure it is in compliance with AmeriCorps provisions and requirements. It will provide a
       copy of the finalized standard operating procedure before October 1, 2011.

Accountants’ Comments: Our responses follow:

      We recommend that the Corporation verify that SGC has provided the standard
       operating procedure by October 1, 2011, and verify that it includes policies and
       procedures for ensuring that all OMB Circular A-133 audit reports and management
       letters are maintained, necessary reconciliations are performed, and results of these
       procedures are documented; and

      We recommend that the Corporation verify that the standard operating procedure has
       been implemented and is working as intended.




                                              53
                         APPENDIX A
_______________________________________________________________
                  SERVE GUAM COMMISSION

              RESPONSE TO THE DRAFT REPORT
                            DEPARTMENT OF


                            LABOR
                            DIPA.TTMENTON HUMOTNA.T •         LEAH BETH   o. NAHOLOWAA, Director




EDDIE BAZA CALVO
      Governor
  RAY TENORIO                                                  July 13,2011
 Lieutenant Governor



           Mr. Stuart Axenfeld
           Assistant Inspector General for Audit
           Office of Inspector General
           Corporation for National & Community Service
           1201 New York Avenue, NW
           Suite 830·
           Washington, DC 20525

           Dear Mr. Axenfeld:

           Hafa Adai! In response to your June 13,2011 letter, attached please find the response to
           the Office of Inspector General's draft report on the Agreed-Upon Procedures for
           Corporation for National and Community Service grants awarded to the Serve Guam
           Commission.

           We are SUbmitting our response in the preferred format as indicated in your letter and
           have also attached the Microsoft Word file.

           Should you require any questions, you may contact me at (671) 475-7043 or via email at
           leahbeth.naholowaa@dol.guam.gov.

                                                               Best regards,



                                                               LEAH BETH O. NAHOLOWA

            Attachment




                       P.O. Box 9970 Tamuning, Guam 96931-9970· (671) 475-7046 . Fax: (671) 475-7045
                              414 W. Soledad Avenue, GCIC Building * Hagatiia, Guam 96910
Guam's Response to OIG Draft Report
Finding 1. SGC and three subgrantees did not have adequate controls to
ensure claimed costs were allowable, allocable, and compliant with OMB
circulars.

Response:
The SGC did not respond directly to the recommendations in the draft report but
has taken the recommendations under advisement.

The SGC will review applicable regulations and amend existing policies and
procedures to ensure that costs claimed by subgrantees are allowable, adequately
documented, and allocable in accordance with applicable cost principles and
regulations. The SGC will provide a copy of the finalized standard operating
procedure before October 1, 2011.


Finding 2. Two subgrantees did not follow AmeriCorps requirements for
members exited early due to compelling personal circumstances.

Response:
The SGC does not concur w~h the findings and did not respond directly to the
recommendations in the draft report but has taken the recommendations under
advisement.


Finding 3. Subgrantees did not comply with AmeriCorps requirements for
criminal history checks and NSOPR searches.

Response:
The SGC concurs with the findings and has added to its risk-based monitoring
policy an on-site visit scheduled the week after all member recruitment has been
completed to review member checklist prior to first day of service.

Finding 4. Subgrantees did not accurately record all timesheet hours, did
not have procedures to verify timesheet accuracy or to ensure all
timesheets were signed and, in some instances, timesheets did not support
member eligibility for education awards.

Response:

The SGC did not respond directly to the recommendations in the draft report but
has taken the recommendations under advisement.

The SGC will review applicable regulations and amend existing policies and
procedures to ensure that costs claimed by subgrantees are allowable, adequately
documented, and allocable in accordance with applicable cost principles and
regulations. The SGC will provide a copy of the finalized standard operating
procedure before October 1, 2011.

Finding 5. Subgrantees could not demonstrate that some members
received performance evaluations, and all end-of-term evaluations did not
meet AmeriCorps requirements.

Response:

The SGC concurs with the findings and has amended its policy to ensure that
evaluations are documented prior to release of subgrantee reimbursements.


Finding 6. Two subgrantees did not complete all member enrollment and
exit forms and enter them into the Corporation's reporting systems in
accordance with AmeriCorps requirements.

Response:

The SGC concurs with the findings and has amended its policy to ensure that
evaluations are documented prior to release of subgrantee reimbursements.


Finding 7. UOG did not follow AmeriCorps and Internal Revenue Service
requirements for withholding FICA taxes from members' living allowance
payments.

Response:

The SGC did not respond directly to the recommendations in the draft report but
has taken the recommendations under advisement.

The SGC will review applicable regulations and amend existing policies and
procedures to ensure that costs claimed by subgrantees are allowable, adequately
documented, and allocable in accordance with applicable cost principles and
regulations. The SGC will provide a copy of the finalized standard operating
procedure before October 1, 2011.

Finding 8. SGC and its subgrantees did not follow certain AmeriCorps
requirements.

Response:

The SGC concurs with the findings and did not respond directly to the
recommendations in the draft report but has taken the recommendations under
advisement.

The SGC will review applicable regulations and amend existing policies and


                                                                              2
procedures to ensure we are in compliance with AmeriCorp provIsions and
requirements. The SGC will provide a copy of the finalized standard operating
procedure before October 1, 2011.

Finding 9. Sanctuary did not ensure reimbursements received from SGC
were disbursed in a timely manner.

Response:
The SGC did not respond directly to the recommendations in the draft report but
has taken the recommendations under advisement.

The SGC will review applicable regulations and amend existing policies and
procedures to ensure that costs claimed by subgrantees are allowable, adequately
documented, and allocable in accordance with applicable cost principles and
regulations. The SGC will provide a copy of the finalized standard operating
procedure before October 1, 2011

Finding 10. UOG's timekeeping system did not comply with Federal
requirements, and Sanctuary could not provide support for labor costs.

Response:

The SGC concurs wtth the findings and did not respond directly to the
recommendations in the draft report but has taken the recommendations under
advisement.

The SGC will review applicable regulations and amend existing policies and
procedures to ensure we are in compliance with AmeriCorp provisions and
requirements. The SGC will provide a copy of the finalized standard operating
procedure before October 1, 2011.

Finding 11. SGC did not document its reviews of subgrantees' OMB
Circular A-133 Single Audit reports

Response:

The SGC concurs wtth the findings and did not respond directly to the
recommendations in the draft report but has taken the recommendations under
advisement.

The SGC will review applicable regulations and amend existing policies and
procedures to ensure we are in compliance with AmeriCorp provisions and
requirements. The SGC will provide a copy of the finalized standard operating
procedure before October 1, 2011.




                                                                              3
                         APPENDIX B
_______________________________________________________________
             CORPORATION FOR NATIONAL AND
                    COMMUNITY SERVICE

              RESPONSE TO THE DRAFT REPORT
NATIONAL&:
COMMUNITY - - - - - - - - - - --
SERVICEtue
                                                                                   -     ctG)O

    To:             Stuart Axenfi.'eld Assistan: !?~ctor General for Audit
                  /:7~                          ~~        /:
    From:          ~~ef~~,                      rectoi6((fr~      anagement

    Date:           July 13, .   .u..J
    Subject:        Response to OIG Draft of Agreed-Upon Procedures of Corporation Grant Awards
                    to the Serve Guam Commission



    Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
    Procedures report of the Corporation's grant awards to the Serve Guam Commission (SGC). We
    have met with representatives of SGC and discussed corrective action to address all fmdings.
    Given the limited timeframe to respond to the draft report, we have not had sufficient time to
    complete our review of SOC's documentation nor can we address the findings at this time. We
    will respond to all findings and recommendations in our management decision when OIG
    provides the audit working papers and issues the final audit.

    The ~IG's executive summary to the report recommends that the Corporation identify SOC as a
    "high-risk grantee" in accordance with 45 CFR §2541.120, and place an immediate hold on
    further grant drawdowns. The oro presents that the action is necessary based on pervasive
    problems outlined in the report. While we agree the report raises serious concerns it does not
    provide sufficient detail to allow us to make a determination on the appropriateness of imposing
    special conditions for "high risk" grantees as required under our regulations or to consider the
    appropriateness of an immediate hold on grant drawdowns. We request that the OIG provide the
    audit work papers to the Corporation along with any additional information it has to support this
    recommendation to enable us to take immediate appropriate action.




                      Senior Corps       *   AmeriCorps   *   Learn and Serve America
          1201 New York Avenu e, NW   * Washington , DC 20525 * 202-606-5000 * www.nationalservice.gov
